<html>
<title> - CLIMATE CHANGE: UNDERSTANDING THE DEGREE OF THE PROBLEM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
        CLIMATE CHANGE: UNDERSTANDING THE DEGREE OF THE PROBLEM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 20, 2006

                               __________

                           Serial No. 109-179

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-932                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 20, 2006....................................     1
Statement of:
    Connaughton, Jim, chairman, Council on Environmental Quality; 
      and Thomas Karl, director, National Climatic Data Center, 
      National Oceanic and Atmospheric Administration............    21
        Connaughton, Jim.........................................    21
        Karl, Thomas.............................................    87
    Curry, Judith, Chair, School of Earth and Atmospheric 
      Sciences, Georgia Institute of Technology; John R. Christy, 
      professor and director, Earth System Science Center, NSSTC, 
      University of Alabama in Huntsville; Roger A. Pielke, Jr., 
      Center for Science and Technology Policy Research, 
      University of Colorado at Boulder; Jay Gulledge, senior 
      research fellow for science & impacts, Pew Center on Global 
      Climate Change.............................................   129
        Christy, John R..........................................   145
        Curry, Judith............................................   129
        Gulledge, Jay............................................   171
        Pielke, Roger A., Jr.....................................   153
    Roosevelt, Theodore, IV, chairman, Strategies for the Global 
      Environment/Pew Center on Global Climate Change; Andrew 
      Ruben, vice president, Corporate Strategy and 
      Sustainability, Wal-Mart Stores, Inc.; and Marshall 
      Herskovitz, producer/director/writer, television and films.   198
        Herskovitz, Marshall.....................................   219
        Roosevelt, Theodore, IV..................................   198
        Ruben, Andrew............................................   206
Letters, statements, etc., submitted for the record by:
    Christy, John R., professor and director, Earth System 
      Science Center, NSSTC, University of Alabama in Huntsville, 
      prepared statement of......................................   148
    Connaughton, Jim, chairman, Council on Environmental Quality, 
      prepared statement of......................................    25
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   238
    Curry, Judith, Chair, School of Earth and Atmospheric 
      Sciences, Georgia Institute of Technology, prepared 
      statement of...............................................   132
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Gulledge, Jay, senior research fellow for science & impacts, 
      Pew Center on Global Climate Change, prepared statement of.   174
    Herskovitz, Marshall, producer/director/writer, television 
      and films, prepared statement of...........................   222
    Karl, Thomas, director, National Climatic Data Center, 
      National Oceanic and Atmospheric Administration, prepared 
      statement of...............................................    90
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................   240
    Pielke, Roger A., Jr., Center for Science and Technology 
      Policy Research, University of Colorado at Boulder, 
      prepared statement of......................................   156
    Roosevelt, Theodore, IV, chairman, Strategies for the Global 
      Environment/Pew Center on Global Climate Change, prepared 
      statement of...............................................   200
    Ruben, Andrew, vice president, Corporate Strategy and 
      Sustainability, Wal-Mart Stores, Inc., prepared statement 
      of.........................................................   208
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    12


        CLIMATE CHANGE: UNDERSTANDING THE DEGREE OF THE PROBLEM

                              ----------                              


                        THURSDAY, JULY 20, 2006,

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:29 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis, Shays, Duncan, Marchant, 
Schmidt, Waxman, Owens, Cummings, Kucinich, Davis of Illinois, 
Van Hollen, Ruppersberger, and Higgins.
    Staff present: David Marin, staff director; Larry Halloran, 
deputy staff director; Keith Ausbrook, chief counsel; Jennifer 
Safavian, chief counsel for oversight and investigations; 
Brooke Bennett, counsel; Rob White, communications director; 
Andrea LeBlanc, deputy director of communications; Teresa 
Austin, chief clerk; Michael Galindo, deputy clerk; Michael 
Sazonov, research assistant; Mindi Walker, professional staff 
member; Alexandra Teitz, minority counsel; Earley Green, 
minority chief clerk; and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. The committee will come to order.
    Welcome to today's hearing on climate change.
    I want to thank my friend and colleague and ranking member, 
Henry Waxman, for working with us to make this discussion of 
climate change a priority for the committee. We are committed 
to addressing this issue in a non-partisan way, and that is how 
it ought to be.
    For too long the political dialog on climate change has 
been dominated by black and white grandstanding, finger 
wagging, or head-in-the-sand denial and denunciation. There has 
really been very little reasonable discourse, and that needs to 
change.
    Over the past several years, and especially over the past 6 
months in the wake of Hurricane Katrina and the release of Al 
Gore's film, ``An Inconvenient Truth,'' climate change has 
understandably jumped to the forefront of America's discourse. 
We have seen the Time cover story suggesting we ``be worried, 
be very worried,'' and yesterday's London Independent Newspaper 
reported ``Temperature set to hit 100 degrees, and global 
warming is to blame,'' and the deluge of attention to ``An 
Inconvenient Truth,'' and its depictions of potential disasters 
of global warming.
    We are here today to acknowledge that too many elected 
officials have for too long been missing in action on this 
issue. We hope to begin to change that, but first we need to 
step back and ask some basic but critical questions. Exactly 
what is climate change? And where are we with the science?
    There are not very many people left these days who would 
argue global warming isn't happening, per se. There is 
widespread agreement that the global mean temperature has gone 
up approximately 1 degree fahrenheit over the past century, 
that atmospheric carbon dioxide has also increased over the 
past century, and that carbon dioxide, as a minor greenhouse 
substance--as opposed to major substances such as water, vapor, 
and clouds--likely contributes to warming.
    But beyond this consensus--scientific, political, 
technological, and moral--remains somewhat elusive. That is why 
we have to step in. It is our job to ask whether we are 
responding appropriately, whether a scientific consensus 
exists, and whether we are facilitating the research and 
ensuring an unbiased review when there is not.
    Knowledge is refined through continuous inquiry and, yes, 
through skepticism. As Mr. Waxman said in an Energy and 
Commerce Committee hearing yesterday--Henry, I don't always 
quote you--``science is hearing both sides, looking at the 
evidence, reaching conclusions based on evidence.''
    Living and breathing through the power of evidence, science 
evolves. Policy needs to evolve along with it. To that end, we 
are fortunate to be hearing from leading researchers on climate 
change about climate change science and about some of their new 
research. But this hearing has not been spared the 
disappointment and politicization that has accompanied the 
issue for too long.
    We were looking forward to hearing from Dr. Jim Hansen, 
NASA's preeminent climate change scientist, but we learned just 
days ago he was no longer available to testify. Let the record 
show he was not muzzled, at least not by this committee. Nor 
will we be hearing from Vice President Gore, who has spoken 
often of Congress and the administration's ``blinding lack of 
awareness'' about this ``planetary emergency,'' and whose 
spokesman told the L.A. Times the Vice President would ``go 
anywhere and talk to any audience that wants to learn about 
climate change and how to solve it.''
    This committee asked the Vice President to pick any date in 
June or July, but apparently ours was not one of the audiences 
he had in mind. While Mr. Waxman and I are disappointed, we 
understand movie screenings and book signings are time 
consuming, and we hope his book signing in northern Virginia 
went well yesterday.
    Regardless, the panels of witnesses we have with us this 
morning will help us greatly in learning more about the truth, 
inconvenient or otherwise, surrounding climate change. We will 
hear from the administration about the President's climate 
change initiatives and the Federal Government's extensive 
research. We will hear from respected scientists with differing 
views on the science of climate change, and we will hear from 
companies and organizations that are responding to climate 
change challenges in their own important ways.
    Today is about education. It is about whether we have the 
courage to ask the difficult questions without regard for what 
the answers may be. It is about beginning to get those answers 
so that strategies to combat climate change can become clearer, 
so that we can begin to understand the complex combination of 
technologies, incentives, restrictions, and sacrifices that may 
be needed to truly tackle this problem, whatever its degree.
    Policymakers need to understand this issue before we can 
pretend to effectively address potential solutions and debate 
the personal, economic, and societal impacts that will 
inevitably evolve. Opportunity has knocked, and today this 
committee at least is answering the door.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T9932.001
    
    [GRAPHIC] [TIFF OMITTED] T9932.002
    
    [GRAPHIC] [TIFF OMITTED] T9932.003
    
    [GRAPHIC] [TIFF OMITTED] T9932.004
    
    [GRAPHIC] [TIFF OMITTED] T9932.005
    
    Chairman Tom Davis. I would now recognize the distinguished 
ranking member who has long been involved in expressing 
environmental concerns and been on the lead end of many 
environmental policies, Mr. Waxman, for his opening statement.
    Mr. Waxman. Thank you, Mr. Chairman. I am really pleased 
that I am here, because if I had not been here you wouldn't 
have quoted me and you would have criticized me. So, Al Gore, 
pay attention. [Laughter.]
    I want to commend Chairman Davis for holding this hearing 
on global warming today. Global warming is the greatest 
environmental challenge of our time, and we have a short window 
in which to act to prevent profound changes to the climate 
system. Unless we seize the opportunity to act now, our legacy 
to our children and grandchildren will be an unstable and 
dangerous planet.
    I have been working to address this threat of global 
warming for many years. In 1992, over a decade ago, I 
introduced the Global Climate Protection Act of that year which 
would have frozen U.S. emissions of greenhouses gases at 1990 
levels in 2000. This was the first bill dealing with the global 
climate problem. Had we acted then, the task before us today 
would be much easier.
    Although we have long known the basic scientific facts of 
global warming, more recent findings have brought us an even 
greater urgency to the problem. Last year the national science 
academies of 11 nations, including the United States, Great 
Britain, Russia, China, India, issued a joint statement on the 
international scientific consensus on global warming. The 
academies unanimously confirmed that climate change is real and 
they stated the scientific understanding of climate change is 
now sufficiently clear to justify nations taking prompt action. 
It is vital that all nations identify cost-effective steps they 
can take now to contribute to substantial and long-term 
reduction in net global greenhouse gas emissions.
    For decades the tobacco industry mounted a disinformation 
campaign to create doubt about the dangers of smoking. Major 
energy industries are now trying the same approach about the 
consequences of global warming. But no one should be deceived: 
global warming is real and it is an enormous threat to our 
Nation.
    Unfortunately, the Bush administration and Congress have 
squandered opportunity after opportunity to address the problem 
of climate change. It is much easier to rack up enormous debts 
than to be fiscally responsible, and it is much easier to 
pretend global warming doesn't exist than to face the reality 
of dangerously overheating climate, but doing is morally 
irresponsible. We are literally mortgaging our children's 
future so that we can continue to consume unlimited amounts of 
fossil fuels.
    It is impossible to catalog this administration's record of 
failures on global warming in a 5-minute statement. President 
Bush set a so-called target for greenhouse gas emissions that 
contemplates a 14 percent increase in emissions by 2012. The 
administration has persistently tried to derail any effective 
international agreement to limit emissions of greenhouse gases, 
and the administration denies that greenhouse gases are 
pollutants. And it is even in court claiming that EPA has no 
authority to regulate global warming pollution.
    Well, we need to stop letting the coal companies, the oil 
companies, and the other special interests dictate our approach 
to global warming. Instead, we need to start listening to the 
scientists. That is what I tried to do earlier this year when I 
introduced the Safe Climate Act.
    There are different approaches that can be taken to climate 
legislation. Some bills seek a symbolic recognition of the 
problem, others are premised on what may be politically 
achievable in the near term. The Safe Climate Act is drafted on 
a different premise. It reflects what the science tells us we 
need to do to protect our children and future generations from 
irreversible and catastrophic global warming.
    The bill has aggressive requirements to reduce emissions of 
greenhouse gases, calling for an 80 percent reduction in 
emissions by 2050, but these are the reductions we need to 
preserve a safe climate for future generations.
    As Dr. James Hansen, among other scientists, has been 
telling us, we have about 10 years to act to avoid being locked 
into irreversible global warming on a scale that will transform 
the planet.
    Daunting though it may seem, these reductions are 
achievable with innovation and commitment. In fact, they will 
make our economy stronger and our Nation safer.
    I hope today's hearing will help this committee and this 
Congress move forward to tackle the urgent problem of global 
warming. The scientists have been proven right on this issue 
time and time again, and if we continue to disregard their 
warnings our children and their children will pay the price.
    I want to point out how remarkable it is that this 
committee is holding this hearing. Yesterday I was at the 
Energy and Commerce Committee's subcommittee hearing. The 
Energy and Commerce Committee has legislative jurisdiction over 
this issue, but in 12 years yesterday's hearing showed what 
their thinking was at the leadership level. They held a hearing 
on global warming simply to try to rebut a study done in 1998 
to 1999 to argue that statistically it was in error, even 
though all the subsequent studies continue to reaffirm the 
conclusions of scientists all over the world.
    That was not a real, legitimate hearing. I hope that our 
committee will serve the purposes for the Congress in giving a 
balanced approach to reviewing this issue so that we can 
impress upon people the problem it is now, the problem it will 
be tomorrow, and what we must do today to prevent the disasters 
of tomorrow.
    Thank you, Mr. Chairman. I commend you for the hearing.
    Mr. Chairman, I would like to mention one item before we 
turn to the witnesses for testimony and the other Members for 
their statement. Mr. Connaughton, who is the chairman of the 
White House Council on Environmental Quality, is here today to 
talk about the administration's views on climate change. As we 
are probably all aware, serious questions have been raised 
about whether the White House and CEQ, in particular, has 
deliberately suppressed and manipulated the findings of 
Government scientists to minimize the problem of global 
warming.
    The chairman and I have discussed how we should handle 
these questions. We have both agreed that an inquiry into these 
matters would benefit from additional information and 
investigation; thus, rather than exploring these issues today, 
the committee will be sending a letter to CEQ requesting 
communications and documents about CEQ's role in reviewing and 
editing Government reports on climate science.
    We have also agreed that, after we have received and 
reviewed these documents, this committee will call Mr. 
Connaughton back to answer any questions raised by the 
documents. I think this approach makes a lot of sense, Mr. 
Chairman, and I appreciate your willingness to pursue it.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T9932.006
    
    [GRAPHIC] [TIFF OMITTED] T9932.007
    
    [GRAPHIC] [TIFF OMITTED] T9932.008
    
    [GRAPHIC] [TIFF OMITTED] T9932.009
    
    Chairman Tom Davis. Thank you very much.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    First, I want to say I think it is interesting that this 
hearing has begun without a thank you, a sincere thank you from 
me and I think the entire environmental community for the 
President's action to protect the largest area in our Federal 
Government in what was done in the Hawaiian Islands and that 
area. Mr. Connaughton, I want to say congratulations. I know it 
was a 5-year fight. You deserve tremendous credit. Generations 
will look back at that action as extraordinarily important.
    I do want to say, in addition, that I believe we are not 
going to have a world to live in if we continue our neglectful 
ways. I believe that with all my heart and soul. I believe that 
future generations will look on all of us in this generation 
like we looked at past generations. We look at past generations 
and say, how could they have done that? What were they thinking 
to have had slaves or to have practiced segregation? And we 
have tremendous arrogance almost because, of course, we 
wouldn't be so stupid. But I think future generations will say 
the exact same thing, and it will apply to our stewardship of 
the environment. They will say, how could we have allowed this 
to happen? What were we thinking?
    Now, I do know that it is not just a Republican problem. I 
would like this administration to have been more active in 
multilateral negotiations. They have been very active in 
bilateral negotiations and have achieved some tremendous 
results. But it is almost like the administration doesn't want 
to get credit for doing something well in the environment. At 
least that is the way I feel.
    Kyoto was negotiated by President Clinton. He never 
submitted it to the Senate. He never submitted it to the Senate 
because it only had about five votes. But if you were to listen 
to the Senators today you would think that everyone would have 
voted for him.
    There was a reason why he didn't submit it: because it had 
so few votes. It had so few votes because China wasn't 
basically included, India wasn't basically included, and, 
frankly, there were some even in the environmental community 
that said, well, if we have to abide by it and do it like they 
do in Great Britain and like they do in France and like they do 
throughout Europe and like they are doing in Japan, we are 
going to have nuclear power, and, of course, that is something 
we don't want to have.
    So I wish with all my heart and soul that the President had 
submitted it to the Senate, and then we would have a more 
logical debate about the problem. Do we waste energy? Do we 
waste fuel? We sure do. Minivans, SUVs, and trucks are not 
under the same mileage standards as cars. Not under the same 
mileage standards? Why not?
    Well, why not is because the senior Democrat in Congress, 
the senior Democrat, the senior Member of Congress stands up 
and opposes any fuel efficiencies, minivans, SUVs, or trucks, 
getting cars to have better standards, with Republicans. It is 
a bipartisan problem, and the environmental community can say 
all it wants, but until we recognize it is a bipartisan problem 
we are never going to solve this problem.
    I thank you, Mr. Chairman, for having this hearing. This is 
an extraordinarily important hearing. This committee is doing 
things no other committee is doing.
    I thank you, Mr. Waxman, for your efforts over decades on 
the environment. You deserve tremendous credit.
    I will conclude by saying that we will solve the problem, 
but it won't be a Republican solution, it won't be a northeast 
solution, it won't be a southwest solution, it will be a 
solution when Democrats and Republicans stop being so gosh darn 
partisan and start dealing with this issue.
    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen.
    Mr. Van Hollen. I thank you, Mr. Chairman. Let me begin by 
thanking you for holding this very important hearing. I also 
want to thank my colleague, the ranking member, Mr. Waxman, for 
his leadership on this issue. I am very pleased to join him as 
an original cosponsor of the Safe Climate Act, which I do 
believe sets forth the best in scientific consensus in this 
country as to what we need to do to address the problem of 
global climate change on an urgent basis.
    I think before we can move as a Nation, before this 
Congress will take action, we have to get consensus on the 
basic facts, and the scientific community is very clear in the 
consensus that this is a real problem, that human activity is a 
primary contributor to this problem, and we need to address it.
    I am not going to delve into this issue too much today, but 
I do think at the outset it is important to underscore the 
issue that Mr. Waxman raised with the efforts that have gone on 
in this administration, well documented, to essentially have 
political people veto the findings of scientists, whether they 
are scientists at EPA, our own Government agencies or 
elsewhere, and essentially trying to rewrite their findings. We 
had an individual who was a representative of the oil and gas 
industry in the White House who was essentially editing the 
findings of scientists for political purposes.
    We have to get beyond that. The President in the State of 
the Union Address said he was committed to addressing the issue 
of energy efficiency and renewable energy, and then we found 
out shortly after the State of the Union speech that he had 
actually cut positions in his budget in one of the renewable 
energy labs in Colorado. They were going to do a big photo op 
out there and they had to scramble to make the rhetoric that he 
gave to the American people meet the reality of the budget. 
Until we stop that kind of nonsense, until we really align our 
resources with our rhetoric, we are not going to move forward 
in this country.
    This is a very, very serious problem, and if we don't 
address it now and in an urgent manner it will be too late. 
Hopefully it is not already too late. As Mr. Waxman said, there 
are things we should have done years and years ago that would 
have made our task now easier. The longer you wait, the more 
urgent your action has to be. Of course, the greater cuts you 
have to make over a shorter period of time than if you begin 
earlier, in terms of emissions of greenhouse gases.
    So I really hope that we get beyond this debate as to 
whether or not this is a real problem, because until we get 
beyond that we can't take the actions we need, and there are 
people who are spending an awful lot of money and time in this 
city committed to trying to obfuscate this issue, to confuse 
the issue. We need to get beyond that. I am glad we are having 
this hearing on this issue, but beyond acknowledging the 
problem we have to get to the solutions and we have to start 
acting.
    It is not just the United States. As we know, we have 
growing economies in China and India that are going to be major 
contributors to the greenhouse gases problem. But if we don't 
lead, if we don't lead here in the United States, we can't go 
around telling people in the rest of the world that they have 
to address this issue. Frankly, as we all know, we are the 
largest producers of greenhouse gases. Per capita we are way 
off the charts. Yet, we have been negligent in terms of our 
response.
    I hope, Mr. Chairman, that this hearing will be part of a 
wakeup call, not to the American people, I think they are 
beginning to get it, but to political Washington to get moving 
on this issue.
    Thank you for having the hearing.
    Chairman Tom Davis. Thank you, Mr. Van Hollen.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Mr. Chairman, I thank you and Mr. Waxman 
for addressing this extremely important issue.
    We are not here to rewrite the science; we are here to act 
on it. Unfortunately, the debate on climate change has gotten 
away from science and has, instead, been driven by political 
opinions on whether or not global warming is happening. I hope 
today we can take a second look at this issue and work together 
to solve this challenge, because the stakes are high and the 
warning signs could not be clearer.
    The 1990's were the hottest decade recorded over the past 
century, and perhaps the millennium. Water sources that were 
once the lifeline of communities across the globe are 
evaporating. In May, MIT and Purdue University separately 
reported new evidence that global warming is causing stronger 
hurricanes, and the melting of our ice caps is now visible to 
the naked eye, causing sea levels to rise. In fact, the Heinz 
Center for Science, Economics, and the Environment estimates 
that at least a quarter of the houses within 500 feet of the 
U.S. coast may be under water by the year 2060 due to rising 
sea levels.
    Right here in the Maryland/Washington/Virginia region, a 
number of islands in the Chesapeake Bay have disappeared in the 
last few decades, including Poplar Island, a historic spot used 
by President Roosevelt. Now Poplar Island has to be maintained 
by a massive dredging project to keep the Baltimore Harbor 
functional.
    The threat here is real and can no longer be ignored; yet, 
the administration has questioned whether carbon dioxide, the 
principal greenhouse gas responsible for global warming, was 
even a pollutant.
    The administration created doubt about the reality of 
global warming and withdrew the United States from the Kyoto 
protocol. Now the administration says we should reduce the 
intensity of greenhouse emissions when we really need to focus 
on lowering greenhouse pollution.
    In the meantime, businesses, homeowners, towns, cities, and 
foreign countries have moved ahead to promote greener, more 
energy efficient technology; 266 cities and towns across 
America have promised to reduce global warming pollution to 
levels required under the Kyoto protocol.
    Businesses are using green technology to cut costs, 
including a new Bank of America tower in Manhattan that will 
convert scraps from the cafeteria into fuel for its generator, 
producing more than half the building's electricity. Wal-Mart 
has set a goal of reducing their carbon footprint by 20 percent 
in 7 years. And every day Americans are using solar energy to 
power their homes, replacing their lamps with energy efficient 
light bulbs to conserve electricity, and buying hybrid and flex 
fuel cars to reduce their gas costs.
    With all these advancements happening in spite of a lack of 
leadership from the White House and some GOP Members of 
Congress, imagine what we could do if we work together in a 
bipartisan manner to address the serious problem of global 
climate change.
    I challenge the administration and some of my Republican 
colleagues here in Congress to take a second look at the facts 
we have on climate change. Too much is at stake to make this 
another partisan issue.
    Thank you, Mr. Chairman, again for calling this hearing, 
and to all of our witnesses for presenting your testimony. I 
look forward to the hearing and your comments.
    Chairman Tom Davis. Thank you very much.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
again echo the comments of my colleagues and I want to 
associate myself with all the comments on both sides of the 
aisle. I think they have been very appropriate.
    I want to thank you, Mr. Chairman and ranking member, for 
holding this vitally important hearing today. You know, Mr. 
Chairman, when children go to Disney World and they go to the 
Animal Kingdom there is a major sign that they have to look at 
because it is so big as you enter. It says, ``We do not inherit 
our environment from our parents,'' it says, ``We borrow it 
from our children.''
    I can tell you that in urban communities, like the one I 
represent in Baltimore, the impact of global warming has been 
great. A study conducted by researchers at Harvard University 
and the American Public Health Association found that America's 
cities are blanketed with smog and climate changing carbon 
dioxide, leading to an epidemic of asthma and other illnesses. 
Hardest hit by the epidemic are preschool-age children, like 
the ones that visit Disney World, whose rate of asthma rose by 
160 percent between 1980 and 1994, the report says. These 
children are so young they are still learning to spell their 
names, yet they cannot breathe because of the pollutants we 
have put in the air.
    Tragically, they are not the youngest victims. In a 
comparison of 86 cities in the United States, infants who lived 
in a highly polluted city during their first 2 months of life 
had a higher mortality rate than infants living in the city 
with the cleanest air.
    We can talk about impact in other terms, too, because 
global warming impacts some communities more than others. In 
2002, 71 percent of African Americans lived in counties that 
violated Federal air pollution standards, compared with 58 
percent of Whites. What to know what the impact of that 
disparity has been? Asthma attacks in 2002 sent African 
Americans to the emergency room at a three times greater rate 
than White, and the asthma-related death rate for African 
Americans was nearly twice that of Whites.
    As a matter of fact, just on Monday, Mr. Chairman, my 
colleague from your side of the aisle went with me on a tour of 
my District in Baltimore, and when we went to the Johns Hopkins 
clinic that deals with the conditions of the poor, he realized 
and was told that the rate of asthma in that community 40 miles 
from here was simply off the charts.
    But that is not all. A recent study of the 15 largest U.S. 
cities found that global warming would increase heat-related 
deaths by at least 90 percent. Most African Americans live in 
inner cities, which tend to be about 10 degrees warmer than the 
surrounding areas.
    We have heard time and time again the accusation that 
people who are sounding the alarm on global warming are a bunch 
of reactionaries making baseless claims. That is a dangerous 
line of reasoning. All one has to do is look at the most recent 
Al Gore movie. The threat of global warming is here and it is 
real. The Intergovernmental Panel on Climate Change, U.S. 
National Academy of Sciences, the National Research Council, 
and the National Academies of Sciences of 11 countries all 
agree when it comes to the impact of global warming has made on 
this planet it has been phenomenal.
    But I need no further evidence than what I see happening in 
my own back yard in Baltimore. Adolescents can't breathe 
normally. Babies are dying prematurely. And African Americans 
are getting sick in communities where they live.
    The time is past due for Congress to lead the charge in the 
fight against global warming. As my colleagues have said, it is 
time for us to act. And I pray that we are not sitting here 5 
years from now having the same discussions, looking at reports 
that have been pulled off the shelf and warmed over, for the 
fact is that people are literally dying. So perhaps some of 
those children that might have had an opportunity to go to 
Disney World won't have that chance if we adults don't do what 
we are supposed to do.
    With that, Mr. Chairman, I yield back.
    Chairman Tom Davis. Members will have 7 days to submit 
opening statements.
    We are going to now move to our first panel. We have Jim 
Connaughton, who is the chairman of the Council on 
Environmental Quality, and Dr. Thomas Karl, the Director of the 
National Climatic Data Center, National Oceanic and Atmospheric 
Administration. Thank you for your patience as we moved through 
our markup and our opening statements.
    It is our policy that all witnesses be sworn before you 
testify, so if you would rise, please, and raise your right 
hands.
    [Witnesses sworn.]
    Chairman Tom Davis. We have a light in front of you. Your 
entire statements are part of the record. Our Members and staff 
have read that, and questions will be based on that. We have a 
green light in front of you. It will turn orange after 4 
minutes, red after 5. If there is an important issue, if you 
feel that you need to go over, you know, we understand, but we 
want to keep things going because we have three panels to get 
through.
    Mr. Connaughton, we will start with you. Thank you for 
being here.

      STATEMENTS OF JIM CONNAUGHTON, CHAIRMAN, COUNCIL ON 
  ENVIRONMENTAL QUALITY; AND THOMAS KARL, DIRECTOR, NATIONAL 
    CLIMATIC DATA CENTER, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

                  STATEMENT OF JIM CONNAUGHTON

    Mr. Connaughton. Thank you very much, Mr. Chairman, Ranking 
Member Waxman, and members of the committee. It is actually a 
delight to be here and a delight, in particular, that you have 
chosen to at least dedicate a portion of this session to the 
actions related to addressing this serious issue.
    Congressman Shays, thank you for your kind words about the 
monument. It really was a great event. It is great for America 
and for the world. It was a lot of fun.
    I want to begin, first and foremost, we talk a lot about 
the polarized debate and rhetoric on climate change. At the 
ground level of policy work, even of scientific work, and the 
ground level internationally, I think the fair characterization 
is actually a raging amount of consensus. I hope you will get a 
feel for that in my testimony.
    I want to begin with the President on the science. As early 
as June 2001 in a major policy address and many times since, 
most recently in the EU last year and again earlier this year, 
the President has made clear that climate is a serious issue, 
serious problem. Humans are a big part of the problem and we 
need to just get on with it, and that is really where our 
discussion needs to focus. It is what are the serious and 
sensible measures that we can take to make meaningful progress 
toward addressing this issue.
    The President is committed to doing that and he has been 
achieving it through a portfolio of policies that are focused 
on encouraging the transformational breakthroughs in technology 
and to take advantage of the power of markets to bring those 
technologies into widespread use. There is raging consensus on 
that point, too.
    The administration's growth-oriented strategy encourages 
global participation--I will talk about that in a second--and 
focuses on actions that ensure continued economic growth and 
prosperity in the United States and throughout the world. This 
is important because economic growth is necessary to provide 
the resources for investment in the technologies and practices 
that are required to reduce greenhouse gases. You don't get 
those investments in sagging economies.
    By the end of this year the administration will have 
devoted nearly $29 billion in taxpayer resources, more than any 
other Nation, to climate science technology, international 
assistance, and incentive programs. We are now implementing 
more than 60 Federal programs that are directed at cleaner, 
more efficient energy technologies, conservation, and 
sequestration. My 40 plus pages of testimony gives just a 
thumbnail of some of the more interesting ones.
    For fiscal year 2007, the President has asked for an 
additional $6.5 billion for climate-related activities. To put 
that in perspective, the entire budget for the National Science 
Foundation is about $6 billion, the entire budget for the 
Department of Commerce or the entire judicial branch is about 
$6 billion. We are talking about a massive, bipartisan-
supported commitment to this important issue.
    Now, domestically the President has set an ambitious 
national goal to reduce the greenhouse gas intensity of our 
economy by 18 percent in 2012. What that means is we are 
working hard to slow the growth in emissions, and there is no 
question that under this metric emissions will grow. We are 
trying to have that occur at a decreasing rate. So our 
objective is to first significantly slow the growth of 
emissions and, as the science continues to inform us, stop the 
growth of emissions and then reverse it.
    To achieve this goal, the administration is pursuing a 
range of activities, partnerships, incentives, mandatory 
programs, and helping to enable smarter consumer choice to 
reduce greenhouse gases.
    Let me start with partnerships, just a few examples out of 
many. We have major new efforts, such as the Department of 
Energy's climate vision program, which gets specific 
commitments from 15 of the major emitting sectors, plus the 
business round table, EPA's climate leaders, which has nearly 
100 leading companies such as the one the Congressman 
described. We have nearly 100 who are leading the way in their 
sectors with very aggressive greenhouse gas reduction programs, 
and a very interesting program called smart way transportation, 
which is trying to turn off diesel trucks at night and plug 
them in rather than emit all night long. Each of these is based 
on specific commitments to cut emissions and improve greenhouse 
gas intensity.
    Now, Federal agencies and private innovators are also 
partnering to pursue energy supply technologies with low, and 
in some cases zero, carbon dioxide and air pollution emission 
profiles. These include solar, wind, geothermal, bioenergy, 
combined heat and power, and a new generation of clean, near-
zero fossil fuel coal plants, as well as the next generation of 
nuclear.
    In the State of the Union this year I think the President 
rocked the Nation and the world with his commitment to 
advancing the domestic and international dialog for renewable 
fuels, both ethanol, cellulosic ethanol, and the new generation 
of clean and really friendly to rural communities biodiesel.
    On the incentive side, it is overlooked but the major tax 
reforms on expensing of dividends that enjoyed strong bi-
partisan support in the Congress are demonstrably working to 
unleash substantial new capital investments, including the 
purchases of cleaner, more efficient facilities and buildings, 
so instead of maintaining the old, inefficient stuff, our 
economy is roaring toward the purchase of new, cleaner, more 
efficient equipment.
    The Energy Policy Act of 2005 authorizes about $5 billion 
in tax credits and incentives over 5 years for clean energy 
systems and highly efficient vehicles, and our farmers and 
ranchers can now obtain substantial financial incentives from 
the nearly $40 billion in farm bill conservation programs to 
biologically sequester carbon on their working lands, while 
also enhancing their local ecology.
    On the mandatory side--again, all of this is new since 
2001--we have a 15 percent mandatory improvement in fuel 
economy for new light trucks now, including large SUVs and 
Hummers for the first time. We are calling on Congress to give 
us the authority to do the same for passenger vehicles, and we 
hope the Congress will act on that.
    We have a 7.5 billion gallon renewable ethanol requirement, 
which enjoys strong bipartisan support, and 15 mandatory 
efficiency standards for new appliances. If you look at the 
other provisions of the Energy Policy Act, it can point to 
every one of them as being a new improvement in reducing 
greenhouses gases, whether it is clean coal, nuclear, some of 
the other technology programs related to hydrogen, etc. We are 
overlooking the fact that we have a comprehensive strategy and 
we have had a lot of climate-related legislation, even in the 
last 2 years.
    These and many other efforts are working. They need to be 
coupled with smarter choices by consumers, and we are on track 
to meet the President's goal.
    A June 2006, preliminary estimate by the Energy Information 
Administration of energy-related CO2 emissions for 2005 show a 
reduction in the emission intensity of 3.3 percent. If I was 
sitting here in 2001, the EIA and most people would say we 
couldn't have done that. Well, we have. We have done it for 
reasons that are both good, as a matter of policy, and for 
reasons that are a bit of concern, which I can talk about in 
the Q and A. But I would note we are making accelerated 
progress.
    This rate of progress domestically in the United States, it 
is also important to note, is on par with what our counterparts 
are achieving internationally in the developed world, whether 
it is the U.K., Australia, Japan, France. The major nations are 
making about the same rate of progress, and that is a good 
thing. It is a good rate of progress.
    Very briefly, on the international side the President is 
sustaining U.S. leadership begun by his father and carried out 
through the Clinton/Gore administration when it comes to 
practical actions to address this important issue. Since 2001, 
not only have we established 15 bilateral climate partnerships 
with countries that account for about 80 percent of greenhouse 
gas emissions, but, very importantly, the G8 last year launched 
a major effort, in partnership and really led by Prime Minister 
Blair working with the President, to create an integrated 
agenda for action that addresses energy security, air pollution 
control, and greenhouse gases as a bundle, which is very 
important.
    Successful projects have been initiated in the area of 
climate research and science, climate observation systems, many 
of the technologies I just highlighted, including, very 
importantly, carbon capture and storage, as well as other joint 
policy approaches. But, most importantly, the United States has 
found a way to engage China and India in a meaningful way with 
the introduction of the Asia Pacific partnership.
    Along with those two countries, Australia, Japan, South 
Korea, and the United States, which account for about half of 
the world's economy, energy use, and greenhouse gas emissions, 
are working together to open up and accelerate market 
opportunities for the best of today's technologies and create a 
platform for the faster introduction of the promising 
technologies of tomorrow. Importantly, this is working with the 
private sector to accomplish this goal in key areas such as 
power generation, cement, aluminum, mining, and buildings.
    I just want to underline the importance of this initiative. 
Countries like China and India, these major emerging economies, 
not only is their air pollution now at levels beyond what we 
saw in America and have now taken real action to address, but 
their greenhouse gases, as early as 2010 to 2015, their 
greenhouse gases will exceed those of the developed world. We 
need to do this together. We have found a pathway by which we 
can do this together.
    The Asia Pacific partnership, along with partnerships such 
as methane to markets and programs internationally focused on 
zero emission coal, renewable energy, energy efficiency, 
hydrogen, next generation nuclear, and even fusion are centered 
on the key ideas that the greatest progress will occur in the 
context of the broader development agenda, so if we can marry 
lifting people out of policy through cleaner energy systems 
with also their desire for clean water and improved energy 
security, we can make very real progress. Second, technology is 
the glue that binds these objectives together. Third, it only 
works with the private sector, which will spend more than $15 
trillion in the coming decades on our entire energy 
infrastructure.
    Our goal is we need to point that investment toward the 
cleanest opportunities.
    I wish I had more time to get into any specific program. I 
hope that this hearing, as well as subsequent hearings, can 
begin to distill out this immense bipartisan program of work 
supported not just in the executive branch but supported very 
aggressively by the legislative branch.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Connaughton follows:]

    [GRAPHIC] [TIFF OMITTED] T9932.010
    
    [GRAPHIC] [TIFF OMITTED] T9932.011
    
    [GRAPHIC] [TIFF OMITTED] T9932.012
    
    [GRAPHIC] [TIFF OMITTED] T9932.013
    
    [GRAPHIC] [TIFF OMITTED] T9932.014
    
    [GRAPHIC] [TIFF OMITTED] T9932.015
    
    [GRAPHIC] [TIFF OMITTED] T9932.016
    
    [GRAPHIC] [TIFF OMITTED] T9932.017
    
    [GRAPHIC] [TIFF OMITTED] T9932.018
    
    [GRAPHIC] [TIFF OMITTED] T9932.019
    
    [GRAPHIC] [TIFF OMITTED] T9932.020
    
    [GRAPHIC] [TIFF OMITTED] T9932.021
    
    [GRAPHIC] [TIFF OMITTED] T9932.022
    
    [GRAPHIC] [TIFF OMITTED] T9932.023
    
    [GRAPHIC] [TIFF OMITTED] T9932.024
    
    [GRAPHIC] [TIFF OMITTED] T9932.025
    
    [GRAPHIC] [TIFF OMITTED] T9932.026
    
    [GRAPHIC] [TIFF OMITTED] T9932.027
    
    [GRAPHIC] [TIFF OMITTED] T9932.028
    
    [GRAPHIC] [TIFF OMITTED] T9932.029
    
    [GRAPHIC] [TIFF OMITTED] T9932.030
    
    [GRAPHIC] [TIFF OMITTED] T9932.031
    
    [GRAPHIC] [TIFF OMITTED] T9932.032
    
    [GRAPHIC] [TIFF OMITTED] T9932.033
    
    [GRAPHIC] [TIFF OMITTED] T9932.034
    
    [GRAPHIC] [TIFF OMITTED] T9932.035
    
    [GRAPHIC] [TIFF OMITTED] T9932.036
    
    [GRAPHIC] [TIFF OMITTED] T9932.037
    
    [GRAPHIC] [TIFF OMITTED] T9932.038
    
    [GRAPHIC] [TIFF OMITTED] T9932.039
    
    [GRAPHIC] [TIFF OMITTED] T9932.040
    
    [GRAPHIC] [TIFF OMITTED] T9932.041
    
    [GRAPHIC] [TIFF OMITTED] T9932.042
    
    [GRAPHIC] [TIFF OMITTED] T9932.043
    
    [GRAPHIC] [TIFF OMITTED] T9932.044
    
    [GRAPHIC] [TIFF OMITTED] T9932.045
    
    [GRAPHIC] [TIFF OMITTED] T9932.046
    
    [GRAPHIC] [TIFF OMITTED] T9932.047
    
    [GRAPHIC] [TIFF OMITTED] T9932.048
    
    [GRAPHIC] [TIFF OMITTED] T9932.049
    
    [GRAPHIC] [TIFF OMITTED] T9932.050
    
    [GRAPHIC] [TIFF OMITTED] T9932.051
    
    [GRAPHIC] [TIFF OMITTED] T9932.052
    
    [GRAPHIC] [TIFF OMITTED] T9932.053
    
    [GRAPHIC] [TIFF OMITTED] T9932.054
    
    [GRAPHIC] [TIFF OMITTED] T9932.055
    
    [GRAPHIC] [TIFF OMITTED] T9932.056
    
    [GRAPHIC] [TIFF OMITTED] T9932.057
    
    [GRAPHIC] [TIFF OMITTED] T9932.058
    
    [GRAPHIC] [TIFF OMITTED] T9932.059
    
    [GRAPHIC] [TIFF OMITTED] T9932.060
    
    [GRAPHIC] [TIFF OMITTED] T9932.061
    
    [GRAPHIC] [TIFF OMITTED] T9932.062
    
    [GRAPHIC] [TIFF OMITTED] T9932.063
    
    [GRAPHIC] [TIFF OMITTED] T9932.064
    
    [GRAPHIC] [TIFF OMITTED] T9932.065
    
    [GRAPHIC] [TIFF OMITTED] T9932.066
    
    [GRAPHIC] [TIFF OMITTED] T9932.067
    
    [GRAPHIC] [TIFF OMITTED] T9932.068
    
    [GRAPHIC] [TIFF OMITTED] T9932.069
    
    [GRAPHIC] [TIFF OMITTED] T9932.070
    
    [GRAPHIC] [TIFF OMITTED] T9932.071
    
    Chairman Tom Davis. Thank you very much.
    Dr. Karl.

                    STATEMENT OF THOMAS KARL

    Dr. Karl. Mr. Chairman, members of the committee, thank you 
for giving me this opportunity to speak to you about climate 
change today.
    As you mentioned, Mr. Chairman, I am the director of NOAA's 
National Climatic Data Center. The National Climatic Data 
Center is the world's largest archive of weather and climate 
data. We also serve as the Nation's scorekeeper regarding 
trends and anomalies of weather and climate.
    I would like to emphasize today that the natural greenhouse 
effect is real and it is an essential component of the planet's 
climate process driven by greenhouse gases such as carbon 
dioxide, water vapor, methane, and other greenhouse gases.
    In the absence of these greenhouse gases, the temperature 
on Earth would be too cold to support life as we know it. Some 
greenhouse gases are increasing in the atmosphere because of 
human activities, and they are altering the planet's way of 
emitting heat it receives from the sun back to space.
    Direct atmospheric measurements made during the past 50 
years have documented the steady growth of carbon dioxide in 
the atmosphere. I have a slide that I hope will come up that 
can demonstrate this. Is that going to show?
    Chairman Tom Davis. We will find out.
    Dr. Karl. There we go.
    As you note from that side, you can see the black line 
represents the increase in carbon dioxide concentrations, the 
blue and red bars represent global temperature anomalies. As 
you can see from that slide, the growth in carbon dioxide is 
occurring over the last several hundred years. This growth is 
predominately caused by the increase----
    Chairman Tom Davis. Where does it start? What year does it 
start?
    Dr. Karl. That is in 1880.
    Chairman Tom Davis. OK, that starts in 1880, so it is about 
120 years?
    Dr. Karl. That graph goes from 1880 through 2005.
    The growth in carbon dioxide is caused by the increase in 
combustion of fossil fuels. Once these greenhouse gases enter 
into the atmosphere, it stays for a long time, from decades to 
centuries. While slide one shows a strong positive correlation 
between increases in carbon dioxide, the black line, and the 
global temperature anomalies, the specific cause and effect 
relationship cannot be assumed. Climate scientists must use 
other tools to link climate change to human influences. This is 
where climate models enter into the picture.
    So what exactly is a climate model? Why is it useful? The 
next slide shows schematically the kinds of processes that can 
be included in climate models. Among these are many Earth 
system components, such as atmospheric chemistry, ocean 
circulation, land surface hydrology, and many others.
    Many of the scientific laws governing climate change and 
the processes involved can be quantified and linked by 
mathematic equations. Linking these equations creates 
mathematical models of the climate that may be run on computers 
or super computers.
    Given the magnitude of the data and understanding of all 
these physical and chemical processes, it is impossible to 
create a single model because it would be too complex to run on 
any existing computer system.
    The key challenge in modeling is to isolate and identify 
cause and effect, which requires knowledge about changes and 
variations of the external forces controlling climate, such as 
greenhouse gases, and a comprehensive understanding of climate 
feedbacks, such as a change in Earth's reflectivity because of 
a change in sea ice or cloud amount.
    Climate models are used to simulate many years of weather. 
These simulations can be used to look either into the future or 
to compare them to some time in the past. This comparison 
enables scientists to study the output of climate model 
simulations to understand the effect of various modifications 
of those aspects of the climate system that might cause the 
climate to change.
    An example of how climate models are used to detect the 
human influence on the climate system is shown on the next 
slide. When considering only natural changes in the Earth 
climate systems, the models cannot replicate the observed 
global temperature. You notice that on the far left. The red is 
the global temperature. The black lines represent model 
simulations, with only consideration of natural variability.
    By including both natural or anthrogenic or human-induced 
changes in the Earth climate system, the models do, indeed, 
replicate the observed global temperature variations in 
changes. That is on the far right panel, to include both the 
anthropogenic changes in the models, as well as natural 
variations.
    The scientific community has been actively working on 
detection attribution of climate changes related to human 
activities since the 1980's. Research has shown there are many 
other aspects of the climate system beside global surface 
temperature that have been influenced by human activity, such 
as changes in temperature, regional changes in temperature, 
changes in ocean heat content, extreme weather, and climate 
events. There is considerable confidence that the observed 
warming, especially since the 1970's, is mostly attributable to 
changes in atmospheric composition due to human influences.
    In conclusion, the state of the science continues to 
indicate that modern climate changes is affected by human 
influences, primarily human induced changes in atmospheric 
composition. While there is considerable uncertainty about the 
rates of change that can be expected, it is clear these changes 
will be increasingly manifested in important and tangible ways. 
Recent evidence suggests there will be changes in extremes of 
temperature and precipitation, decreases in seasonal and 
perennial snow and ice extent, sea level rise, and increases in 
hurricane intensity and related heavy and extreme 
precipitation.
    Furthermore, while there has been progress in monitoring 
and understanding the causes of climate change, there remain 
many scientific, technical, and institutional challenges to 
precisely plan for, adapt to, and mitigate the effects of 
climate change.
    The U.S. climate change science program is addressing the 
scientific dimensions of these challenges through research, 
observations, decision support, and communication. This Federal 
Government program, which encompasses the efforts of 13 Federal 
agencies, helps prioritize and integrate Federal research on 
global climate change. The program's vision, as guided by the 
2003 climate change science strategic plan, is to improve the 
Nation's ability to manage the risks and opportunities of 
climate change and related environmental systems.
    For the next 2 years the program will produce a series of 
synthesis and assessment reports that describe the state of the 
science on a range of key issues. The first report released 
this past May addressed the debate about the differences in 
detected temperature increases by satellites and surface 
observations. The issue has led some to cast doubt about the 
magnitude of global warming. Subsequent reports will further 
provide important contributions to the Nation's discussions on 
climate change.
    Thank you again, Mr. Chairman, for the opportunity to 
testify about this important topic.
    [The prepared statement of Dr. Karl follows:]

    [GRAPHIC] [TIFF OMITTED] T9932.072
    
    [GRAPHIC] [TIFF OMITTED] T9932.073
    
    [GRAPHIC] [TIFF OMITTED] T9932.074
    
    [GRAPHIC] [TIFF OMITTED] T9932.075
    
    [GRAPHIC] [TIFF OMITTED] T9932.076
    
    [GRAPHIC] [TIFF OMITTED] T9932.077
    
    [GRAPHIC] [TIFF OMITTED] T9932.078
    
    [GRAPHIC] [TIFF OMITTED] T9932.079
    
    [GRAPHIC] [TIFF OMITTED] T9932.080
    
    [GRAPHIC] [TIFF OMITTED] T9932.081
    
    [GRAPHIC] [TIFF OMITTED] T9932.082
    
    [GRAPHIC] [TIFF OMITTED] T9932.083
    
    [GRAPHIC] [TIFF OMITTED] T9932.084
    
    [GRAPHIC] [TIFF OMITTED] T9932.085
    
    [GRAPHIC] [TIFF OMITTED] T9932.086
    
    [GRAPHIC] [TIFF OMITTED] T9932.087
    
    [GRAPHIC] [TIFF OMITTED] T9932.088
    
    [GRAPHIC] [TIFF OMITTED] T9932.089
    
    [GRAPHIC] [TIFF OMITTED] T9932.090
    
    [GRAPHIC] [TIFF OMITTED] T9932.091
    
    [GRAPHIC] [TIFF OMITTED] T9932.092
    
    [GRAPHIC] [TIFF OMITTED] T9932.093
    
    [GRAPHIC] [TIFF OMITTED] T9932.094
    
    Chairman Tom Davis. Thank you very much.
    Just to try to sort through it all, let me just ask each of 
you--Mr. Connaughton, I will start with you--global warming is 
a fact; would you agree with that at this point?
    Mr. Connaughton. Yes.
    Chairman Tom Davis. And it is likely to continue over the 
next 50 years?
    Mr. Connaughton. That is what the scientists tell us.
    Chairman Tom Davis. Dr. Karl, would you agree?
    Dr. Karl. Yes. We are already committed to, even if we 
stopped emitting all greenhouse gases, we are already committed 
to approximately another half to 1 degree rise in temperature 
because of the heat that has already been absorbed into the 
oceans and the resident time of existing atmospheric greenhouse 
gases.
    Chairman Tom Davis. How much of this is naturally occurring 
in the cycle of Earth and how much of this is really man 
created?
    Dr. Karl. We think most of it is due to man. There are 
natural effects such as volcanoes and El Ninos that do have 
contributions on global temperatures, but mostly the rise in 
temperature is attributed to human influences of the past 30 
years.
    Chairman Tom Davis. And as you look ahead 30, 50 years, 
without an aggressive policy what does this mean for the 
planet?
    Dr. Karl. Well, in terms of some of the climate activities, 
we look toward increasing heavy and extreme precipitation 
events, more in the way of heat waves, reduce snow cover and 
sea ice, less in the way of cold waves, temperatures in the 
winter would warm up, rising sea levels expecting to continue, 
and probably at this point in time, when dry weather does occur 
on a global basis, the tendency will be for greater evaporation 
and potentially greater intensity of droughts, as well.
    Chairman Tom Davis. Just in the natural occurring of the 
planet in our millions of years of existence, or whatever, we 
have had warmings and we have had it cooled and everything 
else, and that has changed dramatically the landscape, where 
water is, the kind of plants and animals that can survive. What 
is the degree of change that we are looking for at this point?
    Dr. Karl. I think it is important to keep this in mind 
because if you look at the climate about 18,000 years ago, when 
we were in the middle of the last full glaciation, global 
temperatures were approximately--we don't have precise 
measurements--approximately 8 to 10 degrees colder than they 
are at the present time. Some of the scenarios for changes in 
atmospheric greenhouse composition run well into the end of 
this century and into the next century. Some of the scenarios 
approach changes of that magnitude, but within a short period 
of time, a period of 100, 150 years as opposed to a much longer 
time that it has taken for us to recover from the last full 
glaciation.
    Chairman Tom Davis. So that is a very significant change?
    Dr. Karl. Yes.
    Chairman Tom Davis. And, Mr. Connaughton, you have talked 
about some of the things that the administration is doing on 
this and so on. I think it is important to note that there is a 
recognition on the part of the administration that not only is 
there global warming, that we are contributors to that, but 
that we need to be very proactive. Do you agree with that?
    Mr. Connaughton. It goes well beyond recognition. The scale 
and scope of what the United States is undertaking in terms of 
greenhouse gas mitigation is far beyond anything it has done 
before, and the scale of what we are doing as a Nation far 
exceeds what any other nation is accomplishing. But we also 
have the biggest burden and the biggest obligation. We are the 
largest emitter.
    But we have promised, as well--I will give you an example. 
One of the most potent greenhouse gases, which is methane, is 
20 times more potent than CO2, but it also has a shorter 
atmospheric lifetime, so taking action on methane gives us an 
earlier benefit in terms of its forcing.
    The United States has found a way profitably to get an 
absolute reduction in methane emissions, so that is something 
we have been able to go after aggressively through the 1990's, 
and we are carrying that forward, and what we are trying to do 
is take that approach international. So there are real 
opportunities with respect to some greenhouse gases to 
dramatically reverse them.
    I will give you another one: PFCs, perfluorocarbons, which 
also contribute to ozone depletion. We are in the process, the 
United States, of effectively removing them from our economic 
system. The aluminum sector has done a really great job of 
really cutting their use of PFCs.
    So we have some actions where we can really make some 
dramatic reductions and then there are others, such as CO2 from 
fossil energy generation, that are going to require longer time 
horizons, so we need to work on both these really aggressive, 
dramatic cuts, and then these more gradual, phased-in cuts.
    Chairman Tom Davis. But I think you have been critical of 
some of the treaty-based efforts for emissions reductions. Can 
you explain why this is true? I mean, many of the other people 
we are going to hear from today think the only way that the 
climate change can be effectively addressed is through 
international cooperation, particularly with the part of the 
world stepping on now and industrializing.
    Mr. Connaughton. The two main components from an 
environmental perspective that have an economic dimension are 
the problems with the Kyoto protocol. The Kyoto protocol set 
reasonably achievable targets for some countries and set 
impossible to achieve targets for other countries. The United 
States falls into the category of the impossible to achieve. So 
we can't ratify a treaty if we don't have confidence that we 
can actually achieve its objectives. We can do a lot toward 
achieving those goals, but it was just a wrong deal.
    The other problem is----
    Chairman Tom Davis. Should we go back and at least try to 
get another deal, I mean, if that is not reasonable?
    Mr. Connaughton. It is not should we, we already are 
embarked on that exercise on a massive scale. Hold that for 1 
second, because the other problem is the global participation 
issue. If we were to even make halfway progress toward 
achieving Kyoto, one of the big outcomes of meeting that goal 
would have been a shift of our energy intensive manufacturing 
base to countries that don't have targets.
    That is bad enough from a jobs and an economic perspective, 
but let's just worry about climate change. What we have 
effectively done is move our emissions produced in relatively 
efficient manufacturing to another country that does it much 
less efficiently, so you would likely get a net rise in 
greenhouse gases elsewhere. It is like squeezing the end of a 
balloon. It just fills out the other end.
    So we have to be very careful about a well-intentioned 
aspiration creating an unintentional outcome that everybody can 
agree on. Simply moving our emissions to another country 
doesn't solve the problem. That is why we need to pull back 
into this realm of reasonably ambitious, and everybody is 
moving at about the same rate. That is what we are doing to the 
Asia Pacific partnership. We have six huge countries: the 
United States, Japan, South Korea, China, and India.
    And then you have the G8 group that Tony Blair pulled 
together, which is the G8 countries along with India, China, 
Brazil, South Africa, and a few others. That is a pretty 
powerful group of countries that have realized that, regardless 
of these aspirational targets, how do we break it down into the 
several hundred pieces of action that have to occur either 
individually or jointly to make the greatest rate of progress.
    Again, it is exciting what is going on, because we are 
finally talking about real programs of work, not rhetorical 
flourishes, not challenges to each other to accomplish things. 
We are actually breaking it down into how do we make biodiesel 
available worldwide with the same standard. How do we bring 
cellulosic ethanol to market in 2010 rather than 2020? These 
are the very tangible aspects of progress, and that is 
happening. That is what is exciting.
    We have a renewable energy and energy efficiency 
partnership. Methane to markets has several dozen countries 
involved in it trying to do what we do well in the United 
States. We capture methane from landfills. In most of the rest 
of the world they don't. Imagine. That is profitable.
    We capture methane from agricultural waste. In other parts 
of the world there is a huge capacity to capture that methane 
and make it a clean-burning, profitable energy source. And in 
the United States we don't leak natural gas in the environment 
from our oil and gas systems and we don't leak methane out of 
our coal mines any more. We capture it and convert it to 
energy.
    All of those are profitable investments with existing 
technology that can dramatically cut greenhouse gases. You just 
have to roll up your sleeves and work with these other 
countries and help them understand this investment opportunity.
    Chairman Tom Davis. My time is up.
    Mr. Waxman.
    Mr. Waxman. I thank you, Mr. Chairman.
    Mr. Connaughton, you heard what Dr. Karl had to say on the 
state of the science on global warming. Is there anything he 
said that you disagree with?
    Mr. Connaughton. No.
    Mr. Waxman. I am sure you are familiar with the joint 
statement on global warming issued last year by the National 
Science Academies of 11 countries, including the United States, 
Britain, Russia, China, and India. The academies asserted that 
climate change is real, there is now strong evidence that 
significant global warming is occurring, and it is likely that 
most of the warming in recent decades can be attributed to 
human activities. They also had a call to action saying the 
scientific understanding of climate change is now sufficiently 
clear to justify nations taking prompt action.
    Does the administration disagree with the joint statement 
of the national academies, and do you agree that United States 
should be taking prompt action?
    Mr. Connaughton. The U.S. National Academy of Sciences in 
2001 was commissioned by President Bush to give a U.S. 
perspective on the climate science, and they released their 
report in June 2001, a report that the President issued in his 
June 2001 policy statement. The statement that was released by 
the joint academy last year is largely a nearly complete 
reflection of the report the President, himself, commissioned 
and relied on in 2001.
    Mr. Waxman. So you agree? The administration's policy is to 
agree with this position?
    Mr. Connaughton. And let me take it a step further. The 
joint----
    Mr. Waxman. Well, the problem with taking it a step further 
is that I don't get a step further on my questions, so it would 
be easier if you could just answer yes or no.
    Mr. Connaughton. Let me make clear, not only the President 
but the G8 leaders in the Gleaneagle's Plan of Action on 
Climate and Clean Development last year jointly received that 
report and agreed on the need for urgent action.
    Mr. Waxman. OK. Now, in your testimony you tried very hard 
to make the case that the administration is doing something 
meaningful, and here is why I don't buy it: all of those 
programs, initiatives, partnerships, spending aims, all the 
things that you enthusiastically reported to us aim to get you 
to the President's global warming goal, but that goal actually 
allows U.S. emissions of global warming pollution to rise by 14 
percent by 2012.
    Talking about so-called intensity targets lets you obscure 
this basic fact, your plan is to let emissions go up by a lot. 
Are you trying to tell us that allowing U.S. emissions to rise 
by 14 percent in a decade is prompt action?
    Mr. Connaughton. It is significantly better than the 
alternative path we were on, which is an even greater rise, Mr. 
Waxman. The challenge we face--we faced it with water 
pollution, we faced it with air pollution, and I could give you 
half a dozen other examples--is step one in any of these 
efforts to control a major environmental substance, step one is 
to slow the growth through reasonable investment. Step two, and 
air pollution is a good example, the efforts in the 1960's and 
the early 1970's put us on a path to slow the growth of harmful 
air pollutants. It was not until the 1980's----
    Mr. Waxman. Mr. Connaughton.
    Mr. Connaughton [continuing]. It was really not until the 
1980's that we were able to stop the growth, and then now, as 
we sit here today----
    Mr. Waxman. Mr. Connaughton, excuse me.
    Mr. Connaughton. Mr. Waxman, let me get the point.
    Mr. Waxman. No, no. You excuse me because it is my time to 
question you, not for you to give a monologue.
    Mr. Connaughton. I am sorry. I thought you were looking for 
a complete answer, sir.
    Mr. Waxman. Well, complete answers can take volumes, but I 
only have 5 minutes, because what you are saying is you are 
slowing the growth of emissions as to what they would otherwise 
be, but that is only by 3 percent. Your goal barely even slows 
the growth of emissions because emissions intensity improved at 
about the same rate from 1990 to 2000. These types of shell 
games just reinforce the point that the Bush administration has 
very little credibility on this issue.
    I want to review the administration's actual record, not 
rhetoric, on global warming. When President Bush came into 
office, one of the first things he did was to backtrack on a 
campaign pledge he made to regulate global warming pollution 
from power plants. He declared that carbon dioxide is the 
greatest contributor to global warming, and then he said it 
isn't even a pollutant. He also renounced the Kyoto protocol. 
You have already responded to that.
    The administration followed this with a tax package that 
promoted purchase of gas-guzzling Hummers and other highly 
inefficient vehicles and killed efforts to develop super 
efficient vehicles in the near term to the partnership for a 
new generation of vehicles. Then the administration went to a 
world summit on sustainable development and joined forces with 
Saudi Arabia in opposing targets and timeframes for increasing 
renewable energy worldwide.
    And then the administration denied a petition to regulate 
greenhouse gases and is still in court defending that decision. 
The administration refused to raise efficiency standards for 
cars and opposed Senator McCain's modest legislation setting 
mandatory caps on global warming, pollution. The Cheney Energy 
Task Force, if anything, increased not decreased global warming 
pollution. And now the administration is trying to overturn 
efforts in California and 10 other States requiring motor 
vehicles to reduce their emission of greenhouse gases.
    If this is a firm commitment to sensible action, we might 
be better off with no action from this administration.
    Chairman Tom Davis. You can answer that if you would like, 
Mr. Connaughton.
    Mr. Connaughton. Some of what you say is factually correct, 
contextually out of place, and some of it is a gross 
distortion. I will leave it at that, given the fact that Mr. 
Waxman doesn't want a long answer from me.
    Chairman Tom Davis. Well, his time is up, but if you want 
to answer it you are welcome to. If not----
    Mr. Connaughton. I have a long list. It is hard in my 5 
minutes to respond to each of those allegations. I look forward 
to further conversations about it.
    Mr. Waxman. I would certainly give him an opportunity to 
elaborate further because I have made some serious accusations.
    Chairman Tom Davis. If you want to take a second, you are 
welcome to, and address a couple of the issues.
    Mr. Connaughton. Sure. Let's start with CAFE, fuel economy 
standards. It was the national energy plan led by Vice 
President Cheney that made very clear, based on recommendations 
by the National Academy of Sciences, another report that we 
commissioned, the Bush administration commissioned, on the need 
to get on with improving fuel economy standards, but do it in a 
way that doesn't kill people.
    CAFE is a 30 year old statute, well intentioned, proved to 
have a bad design. The car companies down-weighted cars and we 
had more traffic fatalities and thousands of new injuries. The 
Academy gave us good advice on how to improve fuel economy 
safely. The President called on Congress to lift the rider that 
had blocked us from doing fuel economy standards. Secretary 
Mineta, a strong Democrat, is the one that pushed for that, the 
Secretary of Transportation, and Congress lifted the rider.
    We moved forward with the fastest schedule ever to set new 
fuel economy standards for light trucks and SUVs, including 
Hummers, for the first time, and we accomplished that goal, and 
we did it twice. We set it for 2005 to 2007 and we set a new 
set of standards for 2008 to 2011, and that had not been done 
in the generation prior.
    At the same time, 5 years ago the President called on 
Congress to give us the authority to go after passenger cars. 
Congress still, 5 years later, has not given us that authority. 
We want it. We can make safe improvements in fuel economy in 
the passenger sector, too, just like we have done it for light 
trucks.
    But we didn't stop there. The President called for nearly 
$1 billion in tax credits for the most fuel efficient vehicles. 
That was also in the national energy plan in 2001. We finally 
got that 4 years later in EPAC last year, supported in a 
bipartisan basis, which is fabulous.
    But we didn't stop there. You said that we have opposed the 
new advances in vehicle technologies. That is flatly wrong. In 
the State of Union in 2003 the President put hydrogen powered 
vehicles on the world stage and has unleashed a massive new 
Federal investment, nearly $1.7 billion, the largest, I think, 
one of the largest single technology investments the Nation has 
committed to. And he has found a way to partner with dozens of 
countries internationally, not just to make this a U.S. 
initiative, which is what the partnership for a next generation 
vehicle was about, but with hydrogen we have made it a global 
initiative to create a global opportunity for this zero 
emission energy source.
    But it didn't stop there. The President also pushed for tax 
credits to put more money back in consumers' pockets. The 
Republicans in Congress strongly endorsed that package, and if 
you look at the vehicle sales that followed those tax rebates 
for the purchase of newer, more efficient, higher performing 
cars, it was a great outcome from a piece of good economic 
policy.
    So I will just give you that as one example. I could hit 
five of your others with the same set.
    There is a popular mythology out there, sir, that we need 
to reconcile with this kind of a conversation, and there are 
lots of great things we can be doing in a sensible way, so 
let's just get on with it.
    Chairman Tom Davis. Thank you very much.
    Mr. Shays. We have three votes on, but I am going to go to 
another round, get some questions out of the way. We will come 
back afterwards.
    Mr. Shays. Thank you. I am happy to have my opportunity to 
ask questions.
    I feel like there was a Faustian agreement between the 
manufacturers and labor, manufacturers particularly 
representing, tending to be more Republican, laborers tending 
to be more Democratic, to not move forward with what just 
strikes me as obvious. We exempted minivans, SUVs, and trucks 
from the standard, but cars were under it.
    There is no logic that they should be exempted, not under, 
and I would say to you, Mr. Connaughton, I get the sense that 
the administration has been passive on this issue, and 
therefore, given the record of the administration, it is going 
to be viewed as against it. So clarify the position for me, if 
you would.
    Mr. Connaughton. Well, on fuel economy, again, we have to 
cut against what I call popular mythology and what actually 
occurred. The national energy plan of 2001 specifically had as 
a component the need to remove the barriers to setting new fuel 
economy standards, No. 1, and we called on Congress to do that. 
Secretary Mineta sent two letters, and we have statements of 
administration position related to various legislative efforts 
focused on implementing the National Academy of Science 
recommendations. That goes all the way back to 2001. I 
personally worked on that. I worked with Norm Mineta on that.
    Mr. Shays. Let me just ask you if you could sort of shorten 
your answers a bit.
    Mr. Connaughton. OK. And then following that we got the 
rider lifted on light trucks. On our own initiative we added 
large SUVs and Hummers, which were excluded. You are absolutely 
right. And we now have fuel economy standards governing those 
vehicles for the first time.
    Mr. Shays. What are those standards?
    Mr. Connaughton. I don't have the precise numbers. It is 
about a 15 percent improvement in the near term.
    Mr. Shays. Let me just say to you that is where I have my 
problem. After September 11th I would have loved this 
administration to have said to the environmental community, the 
energy community, we are going to be energy independent, 
Manhattan project, whatever you want to call it, a race to the 
moon, and so I think you would agree, while you have done those 
things, it is not the kind of thing where he went out every day 
like he did on Social Security and say, you know, this is what 
I want.
    Therefore, given that in the beginning of this 
administration it almost wanted the environmental community to 
dislike it so it could be favorable with some--and, 
unfortunately, you are faced on the environmental side, but, 
you know, you were put in a position. If the administration was 
viewed as being pro-environment, some Republicans thought that 
was bad. Now we are in the mess we are in. I think that is why 
the administration is in the mess it is in. A lot of the good 
steps it has taken it will not get credit for because of that.
    I want to ask you, there were resolutions on Kyoto, and I 
am wondering if you could speak to any of them. There was one 
resolution I believe on July 25, 1997 to which the vote was 95 
to zero. Are you familiar with that vote?
    Mr. Connaughton. Yes, I am.
    Mr. Shays. Would you explain what that vote was all about?
    Mr. Connaughton. That was before the administration went 
off to cut the final deal on Kyoto, and the Senate, in a 
bipartisan basis, said, don't come back with a deal that has 
two problems. One, it is going to really impede economic 
growth, so don't come back with a deal that is going to cost us 
a lot of jobs. And don't come back with a deal that doesn't 
include the major emitters in the developing world.
    The administration came back with that deal, a deal that 
was bad economically, shifting jobs overseas as I discussed, 
and a deal that didn't seriously engage the large developing 
country emitters.
    The administration, to its credit, spent 4 years trying to 
fix it. They did not succeed even when they are in the lame 
duck----
    Mr. Shays. You are talking about the previous 
administration?
    Mr. Connaughton. The Clinton administration. Even when they 
were in the lame duck period when they could have saddled the 
Bush administration with a bad deal, they didn't. So, to their 
credit, they knew that they needed to fix those problems, the 
economic piece and the developing country piece, and it never 
happened.
    Mr. Shays. OK. Let me just ask you, Dr. Karl, you are 
pretty emphatic. You leave no doubt global warming exists and 
mankind is the biggest contributor. That is your statement. I 
happen to believe it. Is the debate ended within the 
administration about this? Can we put that behind us, no longer 
have a debate coming from the administration? Or is this debate 
with some Senators, Republicans in the Senate? Is there a 
continued debate or is global warming for real and, in fact, 
primarily caused by humans?
    Dr. Karl. I think there isn't much of a debate. I can speak 
probably more reliably in the scientific community about 
whether global warming is real and whether humans are having an 
impact on it. Where the debate in the science community 
currently is focused today is will the changes be at the higher 
end of sensitivity to atmospheric changes and greenhouse gases 
or at the lower end. That makes a big difference in what I 
indicated earlier.
    Mr. Shays. Let me just say a concluding sentence. I think 
it is dramatic that this is definitively being said to this 
committee. If nothing else, just having you two make that 
statement is worth a lot, and I thank you both.
    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen, do you want to try to get your 5 minutes 
in?
    Mr. Van Hollen. Whatever you want to do.
    Chairman Tom Davis. Mr. Van Hollen, let me see how many 
minutes are left.
    I think with your indulgence--we have three votes, we will 
get at the end of one. We will be back in about 20 minutes.
    Mr. Ruppersberger. Mr. Chairman, I won't be able to come 
back. Can I provide questions to both Dr. Karl and Mr. 
Connaughton and have them respond to those questions?
    Chairman Tom Davis. That would be fine. No problem at all. 
They have expressed a willingness to entertain and try to be as 
forthcoming as they can on these issues. Mr. Waxman and I are 
sending a number of questions up that we didn't have time to 
get today. They have agreed to answer.
    Thank you very much. We will recess for about 20 minutes.
    [Recess.]
    Chairman Tom Davis. The committee will come back to order.
    While I am waiting for Mr. Van Hollen, I just had a 
followup.
    Dr. Karl, your models are not exact, right? You just take 
the variables and plug it in to the best of your ability, 
right?
    Dr. Karl. Did you say models are not exact?
    Chairman Tom Davis. Correct.
    Dr. Karl. Yes.
    Chairman Tom Davis. They are models.
    Dr. Karl. Yes.
    Chairman Tom Davis. I mean, you have variables, you plug 
them in, nobody understands what all the variables were 
together. To what percent do you think they are reliable? We 
look at this as the best data we can put together, and if you 
were given a reliability factor and you are looking ahead 10 
years and what happened and how you projected it?
    Dr. Karl. For the climate models looking ahead into the 
future----
    Chairman Tom Davis. I know what our budget models are like 
here in Congress, so, I mean, I hope you are doing better than 
that.
    Dr. Karl. Well, there are two things that cause them to be 
in error. One is whether or not the changes that we think might 
occur, whether they actually do in terms of changes, for 
example, in atmospheric composition, events that are 
unforeseen, volcanic emissions, so there are scenarios that are 
put in the models that are----
    Chairman Tom Davis. May or may not occur?
    Dr. Karl. May or may not occur. So that is one source of 
uncertainty. The other areas which would cause models to be 
less reliable have to do with what we discussed earlier as 
their ability to take a complex system, run it in a computer, 
and if you had all our understanding in one model you would not 
have a computer fast enough to run that model, so you have to 
make some assumptions and parameterizations, as the word is 
called.
    Chairman Tom Davis. But the time line? I think you and Mr. 
Connaughton would agree the trend line is essentially correct? 
Mr. Connaughton, would you say that the trend line in their 
models is one that you would agree with?
    Mr. Connaughton. The trend line is at an order of scale in 
which you could have relatively high confidence, as the 
scientists will tell you about, and we recently published a 
report on temperature change that was the first assessment 
product that the science panel put out.
    But then as we get into these second order issues, that is 
when the very important interface between the scientific 
community, in terms of what they see physically, but also there 
is interface in the policy community and economic community in 
terms of what you see in human development, human effects. 
There is a lot of interface between projections about that, and 
we are constantly building our levels of data into that and our 
levels of confidence.
    When we talk about the nearly 2 billion to climate science, 
a big chunk of it is dedicated to reducing our uncertainties.
    Chairman Tom Davis. And how confident are you and Dr. Karl? 
You agree with the basic trend, but he hasn't given me a 
percentage, and if you don't feel comfortable that is fine.
    Mr. Connaughton. I am not qualified actually to express 
personal confidence, so I just take----
    Chairman Tom Davis. Or unconfidence?
    Mr. Connaughton. What we get from the scientific community 
as a policymaker is we get some--I call it we get a band width. 
They say here is one end of the scale, and here is at the other 
end of the scale, and here is our range of confidence. That is 
helpful for policymaking, just like a budget projection. We do 
that with weather. We do it with air pollution. We have 
different levels of capacity to have confidence in those 
projections, and climate is probably the most complex puzzle we 
are dealing with right now. So you need to accept it in that 
mode.
    We know enough to commit this incredible program of work 
going forward and commit the level of taxpayer resources that 
we are putting in this. We know that much. And then we are 
constantly learning on how to adjust that.
    Chairman Tom Davis. Thank you.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you very much, Mr. Chairman. Thank 
you both for your testimony. Mr. Connaughton, let me also echo 
the statements of Mr. Shays with respect to congratulations on 
preserving many thousands of acres in the Pacific Ocean around 
the Hawaiian islands. I think that was an achievement.
    As you know, we get a very short amount of time to ask 
these questions, so I am going to ask you, if you could, to 
keep your answers brief.
    We heard the testimony this morning that you agreed with 
the scientific statement that Dr. Karl made. Would you agree it 
is important for our political leaders, given the urgency of 
this issue, to speak out clearly and let the American people 
know that this is a challenge and that the scientific debate on 
the issues we discussed this morning is behind us?
    Mr. Connaughton. Yes, and it is also important to educate 
the public on where the science is going in terms of what we 
are trying to learn about the effects of climate change.
    Mr. Van Hollen. I want to just read a statement that 
President Bush gave on July 6th to People Magazine in response 
to a question about global climate change. He said, ``I think 
we have a problem on global warming. I think there is a debate 
about whether it is caused by mankind or whether it is caused 
naturally, but it is a worthy debate.''
    My understanding is that your testimony this morning is 
that that debate is, in fact, over; that, in fact, global 
climate change is real; and I understood you to accept the 
conclusions of Dr. Karl that in recent times the majority of it 
is caused by human activity; is that right?
    Mr. Connaughton. Yes, and I want to make sure you 
understand the context for where we are in our understanding of 
science from a policy perspective. There is a lot of agreement 
top line on warming, lot of agreement on human contribution to 
the problem. We begin to get into issues about the extent to 
which humans are a problem. We begin to get into issues of 
natural forces and human forces and the effects they cause. So 
there is still debate as we get into these lower level issues. 
At the top, a lot of agreement.
    Mr. Van Hollen. Let me just----
    Mr. Connaughton. By the way, that is where the President 
is, too.
    Mr. Van Hollen. OK.
    Mr. Connaughton. He has got a lot of agreement up top and 
he is taking the science as we get it.
    Mr. Van Hollen. The statement you both made this morning is 
the majority of the problem in recent times has been human 
contribution. The President's statement does not reflect that. 
This is an important issue for the American people, and if the 
top political leadership doesn't let the public know that we 
are in agreement on this issue I think it is a disservice to 
the people of the country. He said he has a debate about 
whether--a debate not how much, a debate about whether it is 
caused by mankind or whether it is caused naturally.
    I don't have time to go into this any more, but that is the 
President's statement.
    Mr. Connaughton. I need to clarify. The President has said 
much more than that, and, in fact, he said very strongly what I 
have said to you, so I do not want to leave this hearing with 
an impression that the President is somehow in a different 
position than what you are hearing from me today because that 
would not be correct.
    Mr. Van Hollen. All right. What I am worried about is the 
President's position as the last person who talked to him on 
this issue. I am sorry, but that is my statement, not yours, 
and I understand what you are saying. But this kind of 
statement in the most recent issue, one of the most recent, in 
People Magazine, which is read by millions of people, would 
give you the impression that hey, we really haven't reached a 
scientific consensus on what I understand we have reached a 
consensus on, based on the testimony you both gave this 
morning.
    Mr. Connaughton. And I would disagree with that 
characterization.
    Mr. Van Hollen. OK. Thank you. I said it was mine.
    In the 2002 energy bill--so now we have a consensus we have 
a problem. Now we have to figure out what we are going to do 
about it.
    Now, in the 2002 energy bill Senator Brownback put a 
provision in that would have required large companies to 
disclose their greenhouse emissions. The administration, the 
Bush administration's statement or position on that bill 
opposed that provision, simply requiring them to report their 
emission levels. Can you explain why we would not want to know 
what they were?
    Mr. Connaughton. We went back and forth on the appropriate 
mechanism for work with the industry. We didn't think a 
mandatory reporting system, per se, made a lot of sense, given 
the fact we already had a functioning program that had been 
working since 1992.
    What the President wanted to do was improve and fix that 
program, which we have now done. Just this year we have 
completed all the protocols for actually state-of-the-art, 
industry-wide reporting on greenhouse gases. We then create a 
climate vision that got the major emitting sectors making 
specific greenhouse gas reduction commitments. They are not 
just saying what they are doing, but making commitments to 
reduce, and all of that infrastructure is now underway, so I 
think we are there.
    Mr. Van Hollen. Is it your testimony we now know the amount 
of greenhouse gases being emitted by American industry on a 
per-company basis?
    Mr. Connaughton. Yes. We know it on a macro basis and we 
have good data sector by sector, and we are getting better data 
company by company, and that is what our new 1605(b) guidelines 
are going to incentivize.
    Mr. Van Hollen. Let me ask you, California, as you know, 
has set a law that set greenhouse gas emission standards for 
automobiles. Ten other States said that they are prepared to 
follow suit. The Governor of California I believe is a strong 
proponent of this bill. Can you tell me what the 
administration's position is on that?
    Mr. Connaughton. To the extent the program is the 
equivalent of setting a fuel economy standard, the courts have 
made clear that is preempted by the CAFE law, which was enacted 
by a Democratic Congress and signed by President Jimmy Carter 
back in the 1970's, saying if we are going to have a fuel 
economy standard it needs to occur on a nationwide basis 
because of the huge market disruptions that would occur by 
doing in a State by State basis.
    Mr. Van Hollen. Let me ask you, would you adopt the 
California legal provisions as a national policy, you, the 
administration? What would your position be on doing that?
    Mr. Connaughton. We do not support that as national policy; 
we support the CAFE program under the reform system that we 
have now implemented and that is enjoying broad support. And, 
by the way, we support fuel economy in the automobile fleet in 
all 50 States, not just in a handful of States.
    Mr. Van Hollen. If I could, Mr. Chairman, that is why I 
asked you. You said you objected to the California provision on 
some legal technicality, and the CAFE standard, so my question 
was: are you prepared to amend the national CAFE standard law 
and essentially put in place at the national level the 
California law? You would agree that would get better--that 
would improve our ability to reduce carbon dioxide emissions, 
would you not?
    Mr. Connaughton. We don't need to adopt the California law 
as national law because we have a national law for setting fuel 
economy standards, and that is the corporate average fuel 
economy statute.
    Mr. Van Hollen. I understand that. Mr. Chairman, if I could 
just, I mean, obviously the people of California have decided 
that is not adequate to achieve the reductions they want, and 
they want to move ahead as a State. You say you are opposed to 
that because it is superseded by CAFE, but you are unwilling to 
increase CAFE to get the same kind of emission reductions that 
the California law would provide for; is that right?
    Mr. Connaughton. You are comparing apples and oranges. What 
we have done is set standards for the period through 2011. The 
California program goes well beyond that. We have made no 
decision as to what happens after 2011 because the CAFE statute 
requires an administrative process led by technical experts on 
product design and on economics to figure out the rate that 
makes the most sense, given those factors that Congress--again, 
on a bipartisan basis, including some Members who were around 
back then for part of the creation of that statute. We have a 
process for doing that.
    California seeks to leap ahead and do it arbitrarily. We 
think it is much better to do it through a process that is 
based on the facts and the economic evidence and the technical 
evidence.
    Mr. Waxman. Would the gentleman yield?
    Mr. Van Hollen. I would be happy to yield.
    Mr. Waxman. As a Californian and as someone who was here to 
pass that law and the Clean Air Act, the whole premise of the 
Clean air Act was modeled on the fact that California had taken 
the lead on trying to reduce emissions that cause smog and 
other pollutants that cause health problems. Here California 
wants to take the lead on responding to this global warming 
climate change issue, and yet the Republican administration 
that at least rhetorically talks about local decisionmaking 
wants to keep the local State of California from going ahead of 
the Federal Government. I do believe that Mr. Van Hollen was 
correct when he characterized it as using a loophole that the 
industry has suggested is a basis for challenging it, rather 
than let the States do actions on its own.
    Are you against any experimentation at the State level or 
do you think Washington knows best for everybody?
    Mr. Connaughton. We actually strongly support work at the 
State level to the extent it is not preempted by Federal law. 
In this specific example there is probably a clear case of 
preemption, but also I would be concerned, Congressman, about--
--
    Mr. Waxman. It is not a clear case of preemption. It is the 
preemption argument that the administration is making along 
with the industry to throw it out.
    Mr. Connaughton. Actually, we already had the one round on 
the preemption argument with respect to the California zero 
emission vehicle mandate and the court threw that out. But I 
would also be cautious about using California as an example 
because California often has rhetoric that exceeds its results. 
California did lead early on in cutting air pollution, but as 
we sit here today California's air quality is the worst in the 
Nation and they have no prayer of meeting the current air 
quality standards. So I want to be careful when separating, 
again, well intentioned, you know, although, maybe unsupported 
objective with real programs designed to achieve reasonably 
ambitious outcomes that we have some confidence in attaining.
    Chairman Tom Davis. This panel has got to leave. I promised 
12:30. Let me give Mr. Kucinich a couple of questions. He is 
coming in. Can you bear with that, Mr. Connaughton, and then we 
will move to the next panel.
    Mr. Kucinich. I thank the chairman. I thank the Chair for 
holding this hearing.
    Mr. Connaughton, many European leaders are taking their 
cues from science which is unambiguous on one point: to 
stabilize the climate requires humanity worldwide cut emissions 
by 70 to 80 percent. As a result, Holland is now cutting 
emissions by 80 percent in 40 years. Mr. Blair has committed 
the U.K. to cutting by 60 percent in 50 years. Germany has 
obligated itself to cuts of 50 percent in 50 years.
    Several months ago French President Chirac called on the 
entire industrial world to cut emissions 75 percent by 2050. 
How long would it take for the United States to reach a goal of 
emissions reductions of 75 percent below current levels with 
the administration's current policies?
    Mr. Connaughton. You weren't here earlier, Congressman. I 
want to sort of differentiate between very good, solid 
aspirations for what we might achieve 50 years from now from 
sort of the hard-nosed what can we achieve in reasonable 
timeframes and have some confidence and success.
    Mr. Kucinich. Well, we breathe through hard noses.
    Mr. Connaughton. Yes, we do. I do, as well. So when you 
ask, we are on track to significantly slowing the growth of 
emissions in the near term. I personally have high confidence 
that we will stop the growth of emissions, especially if we 
make real progress on getting nuclear power back into our 
energy mix and if we can find a way to commercialize the zero 
emission coal plants. Those are two big breakthroughs for which 
there are huge policy obstacles right now.
    Mr. Kucinich. It is kind of interesting you would say that, 
because the very notion of greenhouse gas intensity gives the 
administration cover to claim credit for reduction of 
greenhouse gases, and that simply isn't true. So-called 
greenhouse intensity or gas intensity would have gone down 
simply because of efficiency gains, alone. So I am going to ask 
you again: what levels of greenhouse gases do we need to 
achieve for our own well-being, and how quickly must we achieve 
them? I am asking you a second time.
    Mr. Connaughton. Well, to take the first part of your 
question, it is clear that massive new investments in 
efficiency are actually helping us to dramatically slow the 
growth of greenhouse gas emissions, and it is resulting from 
billions and billions of dollars of private sector investment, 
aided by good Government policies--bipartisan Government 
policies, I would add.
    In terms of what will it take until we stop and what will 
it take to get to the levels that you described, I can't give 
you an answer right now. There is not a basis for giving an 
answer.
    Mr. Kucinich. Thank you. But I think it is important to 
give that answer. I mean, we have other nations that are giving 
answers, and I think it is important if we are going to see the 
good faith of the administration on this issue of greenhouse 
gas reduction. Other nations are declaring targets, shouldn't 
we?
    One section of the GAO report boasts of funnelling millions 
of dollars in subsidies for nuclear power, but using nuclear 
power to effect any meaningful reduction in greenhouse gases 
would cost trillions of dollars. Renewable technologies, on the 
other hand, are much more cost effective to implement. Could 
you tell me and this committee why does the administration 
favor nuclear power over renewables, despite the poor economics 
of nuclear power?
    Mr. Connaughton. We don't favor one or the other. We need a 
lot more of both. The cost profile on the renewable, many 
renewable sources right now are more expensive than their 
fossil counterparts, but they can be installed rapidly, so that 
is why you have seen States like Texas, huge investment in wind 
power, and that is fabulous. At the same time, nuclear power 
plants are really expensive to build but really cheap to 
operate, but they take longer to install. So you just have two 
very different economic platforms, which is why the policies 
directed at nuclear are different than the incentives directed 
at renewables.
    But I would note, Congressman----
    Mr. Kucinich. Let me ask you----
    Mr. Connaughton [continuing]. This Congress on a bipartisan 
basis----
    Mr. Kucinich. I want to note something. You are talking a 
cost/benefit analysis here.
    Mr. Connaughton. No, I am not, sir.
    Mr. Kucinich. Well, I hope you are, because are you taking 
into account in your underlying assumptions the cost of nuclear 
waste, which is stored and never disposed of? Do you take that 
into account in terms of the cost of nuclear power, or do you 
write that off the books?
    Mr. Connaughton. No. In terms of the total life cycle of 
cost we do take that into account.
    Mr. Kucinich. Storage?
    Mr. Connaughton. Storage. But what we have moving forward 
right now, plank one occurred in the Energy Policy Act, but we 
are trying to get to a new regime on the waste management and 
storage issue that would dramatically cut the cost of both 
management and storage. That has not been factored in, but if 
we can make success there then the cost profile of nuclear 
becomes even better. And by the way, it is safer and more 
proliferation resistant, and that is really good.
    Mr. Kucinich. Do you take into account the nuclear 
proliferation aspects of national security when you are talking 
about promoting nuclear technologies as opposed to safe, 
renewable technology? Do you factor that cost?
    Mr. Connaughton. The answer is yes. You can do it in a 
qualified way. As a matter of policy, Secretary Bodman, shortly 
after the State of the Union this year, launched the new global 
nuclear energy partnership which is directed specifically at 
the important issue of proliferation. I think the objectives of 
that program would be very consistent with some of the current 
concerns I have heard you voice in the past, Congressman, about 
nuclear power.
    One other observation as to the other countries. While they 
all have--some of them have these long-term aspirational goals. 
You missed my earlier testimony. When you look at what they are 
actually doing, the rate of progress that they are making 
today, it is the case that the rate of progress in those key 
countries in Europe, here, and Asia we are all making about the 
same near-term rate of progress.
    By the way, that is a good thing because it is an improved 
rate of progress, but you still have to differentiate a 50 year 
articulated goal, you know, for which the current political 
actors will not be around to see achieved, from what they are 
actually doing as a matter of policies to produce specific 
results. The results are good, but we are all pulling in the 
same direction at about the same rate.
    Mr. Kucinich. Mr. Chairman, thank you.
    Chairman Tom Davis. Thank you. And, Mr. Connaughton, thank 
you very much for your testimony and elaborating on the 
administration's plan.
    Mr. Connaughton. Thank you.
    Chairman Tom Davis. Dr. Karl, thank you. Did you want to 
add one thing?
    Dr. Karl. Mr. Chairman, I would like to give you a little 
more direct answer to the question on reliability of climate 
models. I think they are reliable enough to be a very useful 
guide into the future, and we have improved them considerably 
in the last couple of decades.
    Chairman Tom Davis. I do not think there is any 
disagreement from Mr. Connaughton either. I just tried to get a 
percent. It is tough, given all the variables. That is all I 
was trying to get. I wasn't trying to discredit you. We 
appreciate all the work that you are doing.
    I will dismiss this panel and we will now recognize our 
second panel.
    We will have Dr. Judith Curry, the Chair of the School of 
Earth and Atmospheric Sciences at Georgia Institute of 
Technology; Dr. John R. Christy, professor and director, Earth 
System Science Center at the University of Alabama in 
Huntsville; Dr. Roger Pielke, the Center for Science and 
Technology Policy Research at the University of Colorado at 
Boulder; and Dr. Jay Gulledge, senior research fellow for 
science and impacts at the Pew Center on Global Climate Change.
    [Witnesses sworn.]
    Chairman Tom Davis. Dr. Curry, we will start with you and 
we will move right on down. Your entire testimony is in the 
record, so what you say, you can supplement or highlight for 
the audience, the cameras, and the Members, but we are going to 
ask questions based on the total testimony.
    You have a light in front of you. It turns green when you 
start, orange after 4 minutes, and red after 5. To the extent 
we can keep with that, we would appreciate it. Thank you.
    Welcome to the committee, and thank you.

    STATEMENTS OF JUDITH CURRY, CHAIR, SCHOOL OF EARTH AND 
ATMOSPHERIC SCIENCES, GEORGIA INSTITUTE OF TECHNOLOGY; JOHN R. 
 CHRISTY, PROFESSOR AND DIRECTOR, EARTH SYSTEM SCIENCE CENTER, 
 NSSTC, UNIVERSITY OF ALABAMA IN HUNTSVILLE; ROGER A. PIELKE, 
    JR., CENTER FOR SCIENCE AND TECHNOLOGY POLICY RESEARCH, 
    UNIVERSITY OF COLORADO AT BOULDER; JAY GULLEDGE, SENIOR 
  RESEARCH FELLOW FOR SCIENCE & IMPACTS, PEW CENTER ON GLOBAL 
                         CLIMATE CHANGE

                   STATEMENT OF JUDITH CURRY

    Dr. Curry. Thank you.
    I would like to thank the chairman, the ranking member, and 
the committee for the opportunity to present testimony today.
    My name is Judith Curry, and I am the Chair of the School 
of Earth and Atmospheric Sciences at Georgia Institute of 
Technology, and I have been conducting climate research for the 
past 20 years. Most recently, I have been conducting research 
on the subject of hurricanes and global warming.
    The prospect of increased hurricane activity on a warmer 
climate is an issue of substantial societal concern. In my 
written statement I have outlined in some detail the evidence 
for the impact of global warming on increased hurricane 
activity. In my testimony today I will focus on presenting the 
data, the documents that interpret the increase in hurricane 
activity. All of the data that I am presenting is publicly 
available from NOAA, and most of this information is already 
published in peer reviewed scientific journals.
    [Slide presentation.]
    Dr. Curry. Let's begin by examining the historical data 
record of north Atlantic tropical cyclones back to 1851. This 
figure shows the numbers of named storms in blue, hurricanes in 
red, and category four and five hurricanes in green.
    To highlight the decadal and longer-term variability, the 
data has been smoothed to eliminate the year to year 
variabilities such as that from El Nino.
    Some cycles are apparent in data, but the most striking 
aspect is the particularly high level of activity since 1995. 
If you compare the statistics for the most recent decade with 
the previous decade of peak activity centered around 1950, it 
would seem that the current period has 50 percent more name 
storms, 50 percent more hurricanes, and 50 percent more 
category four and five storms than the previous peak period.
    This figure shows the total named storms in blue overlain 
by the average tropical sea surface temperature in red. The 
period 1910 to 1920, with low storm activity, was associated 
with anomalously cool sea surface temperatures in the north 
Atlantic. The most recent period of elevated activity is 
associated with anomalously high sea surface temperatures. On 
average, an increase in temperature a half a degree centigrade, 
which is 1 degree fahrenheit, implies an additional five 
tropical storms per season.
    Let's take a closer look at the cycles. A 70 year cycle 
referred to as the Atlantic multi-decadal oscillation, is 
evident from peaks around 1880 and 1950 and valleys around 1915 
and 1985. Also evident is a smaller 20 year cycle.
    Examination of the cyclic variations indicates that the 
next peak in the cycle is expected around 2020; hence, it 
appears that these cyclical variations cannot explain the high 
level of north Atlantic activity we have seen in the past 
decade, 50 percent higher than the previous peak in 1950.
    What does this increase mean for the United States in terms 
of land-falling hurricanes? In this plot of the number of land-
falling storms, the 70 and 20 year cycles are clearly seen. 
Recall the peak in the current 70 year cycle is expected around 
2020. While we are presently 15 years from the peak in this 
current natural cycle, the number of land-falling storms in the 
past decade has already surpassed the previous peak period in 
the 1930's to 1950's.
    If we cannot explain the recent elevated hurricane activity 
by natural cyclic variability, can we therefore assume the 
increase is caused by greenhouse warming? Prior to the 2005 
hurricane season, Dr. Kevin Trenberth published commentary in 
Science raising the issue as to whether the recent increase in 
north Atlantic hurricane activity could be attributed to global 
warming.
    I was skeptical of this idea at the time, since it did not 
seem reasonable to infer anything about the impact of global 
warming merely by examining data in the north Atlantic. 
Trenberth's paper motivated our group at Georgia Tech to 
examine the global hurricane data that was available from the 
satellite data base since 1970.
    A paper published in Science last September showed that, 
while there has been no increase globally in the number of 
hurricanes since 1970, the proportion of category four and five 
hurricanes has doubled. These are the most intense hurricanes. 
This implies that the distribution of hurricane intensity has 
shifted toward more intense hurricanes.
    The two dominant factors that determine hurricane intensity 
are the tropical sea surface temperature and vertical wind 
shear. The figure on the left shows the change in tropical sea 
surface temperatures for each of the regions where hurricanes 
formed. Since 1970, there has been an increase of 1 degree 
fahrenheit in each of these regions. By contrast, the figure on 
the right shows that there has been no trend in wind shear. Our 
research has shown that the global increase in category four 
and five hurricanes since 1970's is directly linked to the 
trend in tropical sea surface temperature.
    What is causing the increase in global tropical sea surface 
temperatures? This tropical warming is consistent with a 
similar increase in global surface temperatures, which is shown 
by the black curve in the figure. The cause and attribution of 
surface temperature trends over the last century has been 
extensively studied, as summarized in numerous assessment 
reports using the results of climate model simulations, as 
described previously by Tom Karl.
    The results from one such climate model from the National 
Center for Atmospheric Research are shown in this figure. The 
blue curve shows the response of the global surface temperature 
only from the natural forcing, solar, plus volcanoes. The red 
curve shows the response to natural forcing plus that caused by 
humans, including greenhouse gases. It has seen that since 
1970's the global surface temperature trend in black cannot be 
reproduced in climate models without inclusion of greenhouse 
warming.
    So what can we conclude at this point about hurricanes and 
global warming? This research that we publish is new. Numerous 
uncertainties remain in our understanding of how global warming 
is influencing hurricane activity; however, particularly in the 
north Atlantic, where warmer sea surface temperatures cause 
more intense hurricanes, as well as more numerous storms, 
global warming is expected to continue to elevate the risk from 
hurricanes.
    [End of slide presentation.]
    Dr. Curry. Thank you.
    [The prepared statement of Dr. Curry follows:]

    [GRAPHIC] [TIFF OMITTED] T9932.095
    
    [GRAPHIC] [TIFF OMITTED] T9932.096
    
    [GRAPHIC] [TIFF OMITTED] T9932.097
    
    [GRAPHIC] [TIFF OMITTED] T9932.098
    
    [GRAPHIC] [TIFF OMITTED] T9932.099
    
    [GRAPHIC] [TIFF OMITTED] T9932.100
    
    [GRAPHIC] [TIFF OMITTED] T9932.101
    
    [GRAPHIC] [TIFF OMITTED] T9932.102
    
    [GRAPHIC] [TIFF OMITTED] T9932.103
    
    [GRAPHIC] [TIFF OMITTED] T9932.104
    
    [GRAPHIC] [TIFF OMITTED] T9932.105
    
    [GRAPHIC] [TIFF OMITTED] T9932.106
    
    [GRAPHIC] [TIFF OMITTED] T9932.107
    
    Chairman Tom Davis. Thank you very much, Dr. Curry.
    Dr. Christy, thank you for being with us.

                  STATEMENT OF JOHN R. CHRISTY

    Dr. Christy. Thank you, Chairman Davis and Ranking Member 
Waxman and committee members, who evidently are not here. I am 
John Christy, professor of atmospheric science and director of 
the Earth System Science Center at the University of Alabama in 
Huntsville. I am also an Alabama State climatologist.
    I recently served as the lead author of the Climate Change 
Science Program's Reporter [CCSP], on temperature trends, and 
was a panelist on the National Academy of Science's Report on 
Temperature Reconstructions for the Past 2,000 years.
    I will be reporting today on research I have completed over 
the past 2 years that has just appeared or will be appearing 
shortly in publications. In one paper my research shows that in 
central California the changes in temperature indicate a 
pattern more closely related to land use changes rather than 
the effects anticipated by the greenhouse theory. Two other 
papers deal with atmospheric temperatures and indicate that the 
atmosphere is apparently warming at a more modest rate than 
projected by a greenhouse theory.
    Earlier this year I and three co-authors published a paper 
on temperature trends in central California since 1910. This 
was actually a followup to work I did as a teenager growing up 
in San Joaquin Valley some 40 years ago when all I had was a 
pencil, graph paper, a slide rule, and a fascination for 
climate. This new work, though, was sponsored by the National 
Science Foundation.
    What drew my attention to central California now was the 
apparent rapid rise in night time temperatures in the valley 
being warmer than any I remembered as a teenager. In my written 
testimony I described in more detail how that work was 
accomplished, but let me say here that there was a lot of 
manual digitization of paper records. We utilized literally 10 
times the amount of data of any previous study in this region.
    We discovered that, indeed, since 1910 the night time 
temperatures in the valley had warmed remarkably, about 6 
degrees in summer and fall, while the daytime temperatures in 
the valley actually fell 3 degrees in those seasons. This night 
time warming is consistent with the effects of urbanization and 
massive growth in irrigation around the 18 stations we used. 
The cooling daytime temperatures are also consistent with 
irrigation.
    But the real surprise was the temperature record of the 23 
stations in the Sierra foothills and mountains. We found no 
change in temperature since 1910. Now, irrigation and 
urbanization have not affected the foothills and mountains to 
any large extent, but evidently nothing else had, either.
    Those temperature observations did not match the output 
given by models which included greenhouse effects specifically 
down-scaled for California. These models show that the Sierras 
should have warmed more rapidly than the valley.
    While these results are provocative, we will, of course, 
await more analysis. That is the way science works. However, we 
performed four ways to check potential errors of these trends 
and found that the night time warming in the valley was 
significant in all cases, but the changes in the Sierras were 
not. These results don't agree with the current greenhouse 
warming theory when applied to this region.
    While the bottom line here is that models have shortcomings 
in reproducing the type of regional changes that apparently 
have occurred, this also implies that they would be ineffective 
at projecting future changes with confidence, especially as a 
test of the effectiveness of certain policies.
    Now, there was considerable media attention given to the 
CCSP report about temperature trends at the surface and those 
in the lower atmosphere up to about 35,000 feet. Much of it, in 
my view, was misrepresented, they misrepresented the report, 
and in my written testimony I deal with some of those issues.
    The basic question that CCSP addressed was whether actual 
temperature trends in the atmosphere were warming faster than 
the surface, because that is a feature of climate model 
projections. The number of observational data sets, or a number 
of observational data sets, indicate a slower rate of 
atmospheric warming than models project. My new research 
sponsored by the Department of Energy, Department of 
Transportation, and National Oceanic and Atmospheric 
Administration seeks to answer questions left open by the CCSP.
    In these studies, I included new observational data sets 
and more formally assessed errors and uncertainties. In both 
papers we show that atmospheric trends indeed appear to be less 
positive than greenhouse theory projects, especially in the 
tropics, which represent fully one-third of the Earth.
    Now what does this mean? That greenhouse gases are 
increasing in concentration is clearly true, and therefore they 
will have an impact on the radiation budget of the atmosphere. 
In our observational work we have not been able to show clear 
support for the way this effect is being depicted in the 
present set of climate models.
    To policymakers my point is the following: we cannot 
reliably project the trajectory of the climate for large 
regions--United States, for example--it would be far more 
difficult to reliably predict the effects of a policy that 
altered by a tiny amount any greenhouse emissions. The evidence 
I presented here is consistent with that view.
    Now, I feel I have some expertise not common to the average 
scientist that I believe is important to the whole discussion 
of climate change. In the 1970's I taught science and math in 
Africa as a missionary teacher, and I observed the energy 
system there. The energy source was wood chopped from the 
forest. The energy transmission system was the backs of women 
and girls. The energy use system was burning the wood in an 
open fire indoors for heat and light. The consequence of that 
energy system was deforestation and habitat loss, while for 
people it was poor respiratory and eye health.
    The U.N. estimates 1.6 million women and children die each 
year from the effects of this indoor smoke. That is 1.6 million 
die each year now due to this primitive energy system. So the 
energy system will grow, as it should, to allow these people to 
experience the advances in health and prosperity that we in 
this country enjoy. They are far more vulnerable to impacts of 
poverty and political strife than whatever the climate system 
might do.
    I simply close with a plea: please remember the needs and 
aspirations of the poorest among us when policy is made.
    Thank you very much.
    [The prepared statement of Dr. Christy follows:]

    [GRAPHIC] [TIFF OMITTED] T9932.108
    
    [GRAPHIC] [TIFF OMITTED] T9932.109
    
    [GRAPHIC] [TIFF OMITTED] T9932.110
    
    [GRAPHIC] [TIFF OMITTED] T9932.111
    
    [GRAPHIC] [TIFF OMITTED] T9932.112
    
    Chairman Tom Davis. Thank you very much.
    Dr. Pielke.

               STATEMENT OF ROGER A. PIELKE, JR.

    Dr. Pielke. Thank you, Chairman Davis, for the opportunity 
to offer testimony today. My name is Roger Pielke, Jr. I am a 
professor of environmental studies at the University of 
Colorado, where I studied the intersection of science and 
policy.
    I would like to start by reading a quote by former 
Representative James Scheuer, 1992, who was speaking at a 
hearing not unlike this one. He was speaking to representatives 
of the Federal research community. He said, ``How much longer 
do you think it will take before the Nation's climate 
researchers are able to hone down their conclusions to some 
very simple recommendations on tangible, specific action 
programs that are rational and sensible and cost effective for 
us to take, justified by what we already know?''
    The main message of my testimony is that the questions 
about what actions on climate change make sense in the short 
term raised by Congressman Scheuer remain largely unanswered 16 
years later. Until we better organize the climate science and 
technology enterprise to focus on policy options for the short 
term, the climate debate is likely to remain in its present 
gridlock.
    I am going to quickly go through eight take-home points in 
my testimony that are spelled out in far more detail than I can 
present here.
    No. 1, human-caused climate change is real and requires 
attention by policymakers to both mitigation and adaptation, 
but there is no quick fix. The issue will be with us for 
decades and longer. The IPCC has concluded that greenhouse gas 
emissions resulting from human activity are an important driver 
of changes in climate, and on this basis alone I am personally 
convinced that it makes sense to take action to limit 
greenhouse gas emissions. Of course, the answer to what action 
is not at all straightforward. It involves questions of on what 
time scales, at what cost, with what consequences, with what 
foregone opportunities, and what mix of adaptation and 
mitigation.
    Two is a very important point: any conceivable emissions 
reductions policies, even if successful, cannot have a 
perceptible impact on the climate for many decades. The long 
lead time until mitigation could have a perceptible effect on 
the climate system seem to be well appreciated by many 
scientists and policy analysts, but seems less well appreciated 
in the public and political debate over climate change.
    It is quite easy to postulate various alternative scenarios 
for future emissions, but at the same time it is similarly 
quite easy to discuss various scenarios for global poverty, 
democracy in Iraq, or the future state of the deficit. What 
matters for real world outcomes are not future scenarios but 
concrete, rational policy actions.
    No. 3, the cost of action, whatever they may be, are born 
in the near term and the benefits are achieved in the distant 
future. Due to the properties of greenhouse gases in the 
atmosphere and their effects on the climate system, even if 
society takes immediate and drastic action on emissions there 
could be no scientifically valid argument that such actions 
will lead to a perceptibly better climate in coming decades.
    The point of this analysis is not to throw up our hands and 
do nothing about mitigation, but the asymmetry in costs and 
benefits suggests that if meaningful action is to occur on 
mitigation we must think about different strategies, and in 
particular policy options that have more symmetry between the 
timing of costs and benefits.
    I fully intend that this perspective be viewed as an 
alternative to the two-sided debate that has been caricatured 
as climate skeptics versus climate alarmists. Perhaps those 
holding this third position might be characterized as climate 
realists.
    No. 4, many policies that result in a reduction in 
emissions also provide benefits in the short term that are 
unrelated to climate change. Examples of such short-term issues 
related to mitigation include addressing the cost of energy, 
the benefits of reducing reliance on fossil fuels from the 
middle east, the innovation and job-creating possibilities of 
alternative energy technologies, reducing particulate air 
pollution, increasing transportation efficiencies, and so on.
    In coming decades, the only policies that can effectively 
be used to manage the immediate effects of climate variability 
and change will be adaptive. For example, even accepting a 
large role for human-caused influences on hurricane 
intensities, greenhouse gas mitigation offers little prospect 
for significantly reducing future hurricane damages.
    No. 6, climate policy, particularly international climate 
policy under the Framework Convention on Climate Change has 
been structured so as to keep policy related to the long-term 
climate change distinct from policies related to shorter-term 
issues of energy policy and adaptation.
    No. 7, following this political organization of 
international climate change policy, research agendas have 
emphasized the long term, meaning that relatively very little 
attention is paid to developing specific policy options or 
near-term technologies that might be put into place with both 
short-term and long-term benefits. The U.S. global change 
research program and its successors, the climate change science 
program, have never placed the needs of decisionmakers at the 
center of their mission, focusing instead on advancing 
scientific understandings or reducing uncertainties.
    Part of the explanation for the situation lies in the fact 
that the scientific community has benefited immensely from the 
current approach, and an emphasis on short-term policy and 
technological options would necessarily imply a different 
approach to climate science and technology policy priorities.
    Another part of the explanation is that it is quite easy 
for policymakers to put the burden of solving the problem onto 
the scientific community, which also has the effect of using 
research policies as a substitute for other types of action. 
With political advocates on either side of the issue also 
looking to science as a leading element of their public 
relations and political lobbying campaigns, it should be no 
surprise that scientific and technological research on climate 
has focused on long-term issues over the generation of 
practical options for short-term considerations.
    Eight, finally, the climate debate may have begun to slowly 
reflect these realities, but the research and development 
community has not yet focused much attention on developing 
policy and technological options that might be politically 
viable, cost effective, and practically feasible. I am 
convinced that as people begin to see the limited performance 
of existing approaches to emissions reductions and as the toll 
of climate-related disasters grow due to ever-increasing 
vulnerabilities, there will be a shift to a more short-term 
focused approach to climate mitigation and adaptation. However, 
given the institutional and political momentum which currently 
characterize the climate issue, there is a substantial risk 
that the issue will continue to display sound and fury, with 
most action being symbolic or simply ineffectual.
    The question is whether we can organize our intellectual 
infrastructure to invent and bring forward policy and 
technological options that will satisfy both the short-term and 
long-term facets of this incredibly complex issue.
    Through oversight of the climate change science program and 
the climate change technology program, Congress might motivate 
the evolution of these programs to focus more explicitly on the 
needs of decisionmakers.
    Thank you.
    [The prepared statement of Dr. Pielke follows:]

    [GRAPHIC] [TIFF OMITTED] T9932.113
    
    [GRAPHIC] [TIFF OMITTED] T9932.114
    
    [GRAPHIC] [TIFF OMITTED] T9932.115
    
    [GRAPHIC] [TIFF OMITTED] T9932.116
    
    [GRAPHIC] [TIFF OMITTED] T9932.117
    
    [GRAPHIC] [TIFF OMITTED] T9932.118
    
    [GRAPHIC] [TIFF OMITTED] T9932.119
    
    [GRAPHIC] [TIFF OMITTED] T9932.120
    
    [GRAPHIC] [TIFF OMITTED] T9932.121
    
    [GRAPHIC] [TIFF OMITTED] T9932.122
    
    [GRAPHIC] [TIFF OMITTED] T9932.123
    
    [GRAPHIC] [TIFF OMITTED] T9932.124
    
    [GRAPHIC] [TIFF OMITTED] T9932.125
    
    [GRAPHIC] [TIFF OMITTED] T9932.126
    
    [GRAPHIC] [TIFF OMITTED] T9932.127
    
    Chairman Tom Davis. Thank you very much.
    Dr. Gulledge.

                   STATEMENT OF JAY GULLEDGE

    Dr. Gulledge. Mr. Chairman and ranking member and members 
of the committee, I appreciate this opportunity.
    I just want to clarify that while I am replacing Dr. Hansen 
on the panel, I am not representing him, and my testimony is my 
own.
    Chairman Tom Davis. We appreciate your coming on short 
notice.
    Dr. Gulledge. Thank you. I appreciate that.
    [Slide presentation.]
    Dr. Gulledge. I am senior research fellow for science and 
impacts at the Pew Center on Global Climate Change, as well as 
an Adjunct Assistant Professor at the University of Louisville, 
which houses my academic research program on carbon cycling.
    Dr. Karl sat up here earlier and gave you some very 
affirmative questions and exhibited a lot of certainty about 
some things for the science, and I want to give you a sense for 
why the science in recent years has really become quite solid 
and scientists have become quite certain about the causes of 
climate change.
    I would summarize the progress as under two broad 
categories: reductions of uncertainties and observed changes in 
the climate itself.
    Dr. Karl showed you that the global surface temperature 
has, in fact, risen over the 20th century, and it has increased 
by about 1.4 degrees fahrenheit over this time.
    We see the same pattern of warming in the Arctic, and we 
see that it is amplified there. The warming there has been on 
the order of 2 degrees or more. Currently, even though we had 
quite a warm period during the 20th century in the Arctic, we 
see that we have exceeded that significantly at this point.
    We see the same kind of pattern for sea surface 
temperatures. This is just an example from the tropical 
Atlantic. Again, the current temperatures there have exceeded 
the warm period during the middle of the 20th century.
    Not only are we the warmest time in this past century, a 
number of efforts have been made to document the temperature 
trends over the last thousand years. None of these attempts 
have been able to show that there has been a time that it was 
as warm in the past thousand years as we currently see.
    Now, these next two slides are very fundamental to what I 
am trying to communicate here about reduced uncertainties. 
First, I show a picture here of Antarctica, but globally there 
has been an intensification of the water cycle of glaciers, 
both in mountains as well as polar ice in the north and in the 
south. Back in the 1980's it was predicted that you should see 
an intensification of the water cycle, which means more 
snowfall in the high elevations of glaciers and more melting at 
the low elevations of glaciers. This has not been confirmed 
globally. We see it in Greenland, we see it in Antarctica, and 
we see it in mountain glaciers around the world, including the 
tropics.
    This was predicted more than two decades ago based on 
specifically how the greenhouse effect should drive changes in 
glaciers around the world. More recently, this year it has also 
been documented that the atmosphere above Antarctica has warmed 
dramatically relative to the rest of the world, and we weren't 
sure about that before and now we actually have that 
confirmation.
    This slide is also very important. Also recently, data on 
the heat content of the ocean over the last 50 years has been 
compiled, and we now see that the ocean has been gaining heat 
over the last 50 years, at least--that is where we start the 
record--and this is an immense amount of energy. You cannot get 
it from anywhere else in the climate system. It has to come 
from outside the climate system and it is consistent with what 
we call an external forcing. There are not many external 
forcings that we can think of. During this time, for instance, 
there has been no apparent increase in the intensity of the 
sun, but this is when the most increases occurred in greenhouse 
gases.
    Now, when you have greenhouse forcing, most of the energy 
getting trapped goes first into the ocean, more than 80 percent 
of it, and it is here. This warming you see here is what we 
call the warming in the pipeline. This energy will equilibrate 
with the atmosphere later. There is about another 1 degree of 
warming trapped in here already. And we already see that the 1 
degree of warming we have had in the past 50 years has already 
caused the immense continent of Antarctica to respond.
    Now, the consequences are numerous. I am focusing on global 
changes here. Mountain glaciers around the world have reacted 
to these changes in climate, and here we have a reconstruction 
of glacier lengths related through a physical model, a 
mathematical physical model to surface temperature. These are 
glaciers from around the world. We see that in the 20th century 
it starts here in the little Ice Age and remains stable until 
1850, and then glaciers begin to retreat. This accelerates 
dramatically in the 20th century, and glaciers respond to the 
small changes that we see, global changes that we see during 
the 20th century. So this tells us that, in fact, the climate 
is quite sensitive, even to the relatively small climate change 
that is already in the bag.
    Next we see that the arctic ice, sea ice, has reached its 
lowest recorded extent in the year 2005.
    Greenland, according to the latest measurements, which have 
some uncertainty, is apparently having a net loss of ice. First 
observations of Antarctica suggest the same. This was published 
just this year. The point of all of this is that we are seeing 
all these impacts globally.
    Finally, the next slide shows that we have finally--one of 
the uncertainties was whether or not sea level rise was 
accelerating. You definitely should expect that. Over the last 
decade, the rate of sea level rise has been 70 percent faster, 
based on satellite measurements, than the average over the 20th 
century, which does suggest that there has been an 
acceleration. Time will tell whether that is a persistent 
effect. Right now the rate of sea level rise would give us 1 
foot of additional sea level rise by 2100 without further 
acceleration.
    To sum up, we have had reduced uncertainties. We now know 
that the warming is truly global, even over Antarctica, which 
was a big question. Warming has reached historic proportions. 
Glacier water cycle intensification is occurring globally. The 
ocean is known to be gaining heat, and sea level rise appears 
to be accelerating.
    Finally, the observed changes in the climate tell us that, 
in fact, the climate system globally is quite sensitive to 
these levels of changes, and so far the changes are small 
compared to what is projected for the future as a result of 
greenhouse gas forcing. We see global glacier loss 
accelerating. The Arctic Ocean may be heading for an ice free 
condition, according to recent research. The changes generally 
have been faster than expected, which tells us we have probably 
also underestimated the sensitivity of the climate system in 
the past. That is based on the warming we have had so far, and 
we know we have a similar amount of warming already in the 
pipeline.
    [End of slide presentation.]
    Dr. Gulledge. Thank you.
    [The prepared statement of Dr. Gulledge follows:]

    [GRAPHIC] [TIFF OMITTED] T9932.128
    
    [GRAPHIC] [TIFF OMITTED] T9932.129
    
    [GRAPHIC] [TIFF OMITTED] T9932.130
    
    [GRAPHIC] [TIFF OMITTED] T9932.131
    
    [GRAPHIC] [TIFF OMITTED] T9932.132
    
    [GRAPHIC] [TIFF OMITTED] T9932.133
    
    [GRAPHIC] [TIFF OMITTED] T9932.134
    
    [GRAPHIC] [TIFF OMITTED] T9932.135
    
    [GRAPHIC] [TIFF OMITTED] T9932.136
    
    Chairman Tom Davis. Thank you very much.
    Dr. Christy, Dr. Gulledge points to reduced uncertainties. 
Is that consistent with your new studies?
    Dr. Christy. Reduced sensitivities about what?
    Chairman Tom Davis. Just generally the issues on climate 
change and the variables, accuracy of data.
    Dr. Christy. In our work we start looking at climate on the 
ground and in the air. We see continued uncertainties, that 
there are significant differences between model projections in 
these places I have shown. There are some other examples in 
there, too, in the regional scale aspects of climate.
    The global average temperature, that is a different story, 
but remember that all climate modelers knew what the answer was 
ahead of time when they began reproducing the last 100 years or 
so.
    Chairman Tom Davis. Dr. Curry, we are policymakers. We are 
not scientists. Mr. Waxman and I are lawyers. We do the best we 
can. But in the 1980's you called yourself a skeptic about 
global warming, but your research has now directed you away 
from that, but NOAA disagrees with some of your findings on 
hurricanes. Is there any way to reach a consensus on this to 
get everybody around and reach a consensus?
    Dr. Curry. The issue of hurricanes and global warming has 
received intense scrutiny for only about the past year, and 
that is sort of relatively new. Now, these things have to go 
back and forth. We have to survive challenges by skeptics, etc. 
I think the subject is rife for an assessment by a body such as 
the National Academy of Sciences to get an independent body of 
scientists who can assess the evidence, the data, the quality 
of the data, the published research that has been done, to make 
some sort of an assessment and recommendation for clarifying 
the uncertainties.
    You know, too much of this debate is going on in the media 
and it has been polarized beyond anything that makes sense in 
terms of the actual science. I think we do need an assessment. 
The National Academy of Science Climate Research Committee and 
Board on Atmospheric and Science Research has proposed such an 
assessment. They have not yet identified funding. I encourage 
this committee to encourage such an assessment so we can at 
least sort out the evidence that we have so far and try to make 
sense of it.
    Chairman Tom Davis. Dr. Pielke, in your testimony you 
stated that available research and experience shows quite 
clearly that progress is far more likely when actions align a 
short-term focus with the longer-term concerns. I wonder if you 
could kind of elaborate on that?
    Dr. Pielke. Yes. In my testimony I refer to some research 
that was done looking at some of the State and local 
initiatives related to climate change mitigation. The question 
was: what makes these successful? When do they work? When do 
they go beyond the statement of aspirations into actual 
progress on the ground? What those researchers found was that 
when those local government entities were able to line up--and 
this holds true for companies, as well--their short-term 
motivations, whether it is reducing the cost of energy, 
improving transportation efficiencies, reducing air pollution, 
it is much easier for them to sell and put into place these 
policies that may be justified as long-term climate change 
policies.
    Certainly for State and local communities, such as the one 
I live in in Boulder, any action that they take on energy 
policy is not going to materially affect the climate, so it 
could be a very hard sell to the citizens in those communities.
    Similarly, if you look at the history of ozone depletion, 
ozone depletion gained traction as a political issue when 
substitutes were invented. Substitutes allowed companies like 
DuPont to realize economic benefits in the short term as they 
were dealing with a decade-old, very long-term problem.
    But I think if you look at any issue beyond scientific 
issues, such as people saving for retirement, the Government 
gives tax breaks for people who put that money aside to try to 
reconcile short-term benefits with long-term benefits. It is 
just a common sense approach to public policy.
    Chairman Tom Davis. OK. Dr. Christy, what precisely do you 
conclude scientifically from your finding that the location of 
warming is not what is predicted by the models? Does that mean 
that the increased greenhouse gas emissions are not going to 
alter the climate or that they are not going to alter it as 
much, or that the ways in which they would alter are very, very 
uncertain and unpredictable?
    Dr. Christy. From your description there, the latter two 
results are that the radiated forcing must increase because of 
this extra CO2. There is really no way around that. There will 
be extra joules of energy stored in the climate system.
    Chairman Tom Davis. There is agreement I think with 
everybody on that. That is not a fact in dispute. The question 
is then how is that going to be expressed?
    Dr. Christy. Right. The uncertainty is there, and I think 
the earlier panelists had mentioned them. In our data system--
and we are doing boots-on-the-ground kind of climate work 
here--don't match up very clearly with the scenarios we see in 
the global climate models.
    Chairman Tom Davis. But the excess CO2, that is not a good 
thing over time? Could you say that?
    Dr. Christy. If you ask a corn plant it might think more 
CO2 is great.
    Chairman Tom Davis. If you live in North Dakota, maybe it 
is good?
    Dr. Christy. That, too.
    Dr. Gulledge. Mr. Chairman, if I might add some 
perspective.
    Chairman Tom Davis. Please.
    Dr. Gulledge. The testimony that I gave is based almost 
entirely on research published in the last 2 years and it is 
purely observational. There is no modeling results there. It is 
all on-the-ground research. It is what is happening on the 
ground in Antarctica. The glacier cycle, water cycle is 
intensifying. The atmosphere above it is warming. These are 
things that the modelers did not know ahead of time.
    Chairman Tom Davis. What does that mean? So the ocean rises 
2 feet over 100 years. What does that do to me?
    Dr. Gulledge. Well, it means, from my perspective as 
someone who is asking questions about the basic physics of the 
climate, it means that there is more energy being trapped in 
the climate system that is causing it to rise. Now, that is the 
nature of the testimony I am giving, is that it confirms our 
understanding that the climate is responding in a sensitive 
fashion to the energy that is being trapped into the system.
    Chairman Tom Davis. Natural changes have gone on, though, 
for hundreds of thousands, for millions of years.
    Dr. Gulledge. That is correct, and we are examining a 
variety of possible forcings. As I said, the heat absorption of 
the ocean tells us that this heat is coming from outside the 
Earth's system. This isn't a transfer of heat from one place to 
another within a climate. You have to look for an external 
forcing, and one that can be responsible for everything from 
the sea level rise to the intensification of the glacier water 
cycle on Antarctica.
    Chairman Tom Davis. What is happening in Antarctica is 
really manmade, is what you are saying?
    Dr. Gulledge. It clearly----
    Chairman Tom Davis. Indirectly.
    Dr. Gulledge [continuing]. Was predicted as the kind of 
response you would expect to see from greenhouse forcing, and 
it cannot be explained by something like changes in the sun. 
And it can be explained by the amount of greenhouse gases that 
we have added to the atmosphere.
    Chairman Tom Davis. And the changes. What will occur is 
there will be new species developed and you will have species 
go extinct and water lines will change, but what does it mean 
100 or 200 years from now.
    Dr. Gulledge. You are asking about impacts?
    Chairman Tom Davis. Yes.
    Dr. Gulledge. It means the coastlines will be inundated. 
The coastal cities will have more of a storm surge. Right now 
we have coastal cities that care whether storm surge is plus or 
minus a foot.
    Chairman Tom Davis. Let me ask Dr. Curry, do you agree with 
that, too, that we are seeing more storm surge today?
    Dr. Curry. Absolutely. There are some island nations that 
are on the verge of just being subsumed. A big chunk of 
Bangladesh sits about 2 feet above sea level. A big chunk of 
south Florida sits at 2 or 3 feet above sea level. We have seen 
from Katrina what happens when a big storm surge hits a city 
that is below sea level--not good things.
    Chairman Tom Davis. And is there a consensus that the 
weather cycles of the last maybe decade, to some extent the 
warming of the water in the Caribbean having an effect?
    Dr. Curry. Yes.
    Chairman Tom Davis. The previous panel seemed to indicate 
that.
    Dr. Curry. Yes. Observations clearly show the sea level 
rise.
    Chairman Tom Davis. That is uncontroverted, in your 
opinion?
    Dr. Curry. Yes.
    Chairman Tom Davis. How about you, Dr. Christy?
    Dr. Christy. Yes. The sea level has been rising for 18,000 
years and should continue to rise because there is more ice to 
melt in the system. About 130,000 years ago it was 18 feet 
higher as a result of that natural period. Someone mentioned 
about a foot per century. That is entirely reasonable and you 
don't even have to invoke greenhouse warming, but greenhouse 
warming might accelerate that a bit.
    As a State climatologist I advise people on the coast, and 
I say, look, it is not the 1 inch per decade that is going to 
get you, it is the 20 feet that comes in 5 hours because of the 
storm surge. That is so much----
    Chairman Tom Davis. You think the storm surges are worse 
today than they have probably been over the last----
    Dr. Christy. Not particularly. They are absolutely worse 
because we have more expensive things in the way that are just 
saying, come and hit me. You are going to see in the next 
century devastating hurricanes hit the Gulf Coast and the 
Atlantic Coast.
    Chairman Tom Davis. How about the West Coast? Does Mr. 
Waxman get free?
    Dr. Christy. I think he is safe.
    Chairman Tom Davis. He has got earthquakes to worry about.
    Dr. Christy. Watch out for earthquakes.
    Chairman Tom Davis. Dr. Pielke.
    Mr. Waxman. Just to say that statement that there be 
increases in hurricanes, and my question to you is why.
    Dr. Christy. I am sorry?
    Mr. Waxman. Why?
    Dr. Christy. No, I didn't say an increase in hurricanes, I 
just said there will be an increase in hurricane damage because 
there is more stuff to damage.
    Chairman Tom Davis. More stuff is built up.
    Dr. Christy. It is going to be devastating, and this fellow 
knows a lot about that.
    Chairman Tom Davis. Dr. Pielke.
    Dr. Pielke. Yes. Earlier this spring in Germany I helped 
co-organize a workshop with Munich Reinsurance. The question we 
asked was: given this global trend of increasing disaster 
costs, which is going off the charts, can we attribute any part 
of that to human-caused climate change?
    It turns out that the only consensus we could reach on that 
was that we could not at this time attribute that. Some people 
believed that it could be attributed, others not. What everyone 
agreed on, that at least 80 to 90 percent of the trend in the 
increasing damage could be attributed to more wealth, more 
population, more people along the coast.
    The largest signal in the effects that we see like 
Katrina's and others from extreme events are the decisions that 
we make every day: where to build, how to build, at what value. 
That is driving the impacts much, much more than any of the 
changes in climate that might have been documented so far.
    Chairman Tom Davis. OK. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. I want to thank each 
of our witnesses for their presentations.
    As the chairman said, we are not scientists, we are 
policymakers, and it turns out that both of us are lawyers. You 
are a lawyer are not you, Dr. Pielke?
    Dr. Pielke. No, I am trained as a political scientist.
    Mr. Waxman. Political scientist, but you are not a 
climatologist?
    Dr. Pielke. No.
    Mr. Waxman. OK. So what we have in the four of you is 
different views, and we try to figure out what those different 
views represent, but it is appropriate to hear different points 
of view. But there seems to be among scientists overall a 
pretty strong consensus. The chairman asked about it. Dr. Karl 
stated that the current debate in the science is no longer 
about whether humans are causing climate change but how 
sensitive the climate will be to a given amount of CO2 in the 
future.
    Dr. Gulledge, can you provide any more background in the 
state of that important scientific question?
    Dr. Gulledge. Yes, about how sensitive the climate is to 
changes in forcing or amount of CO2 or, for that matter, any 
kind of forcing that might change over time. This really is the 
$50 million question in climate science, and that is where the 
true scientific debate is going on in the science research at 
this time. And by debate, of course, I mean people do their 
research and then they compare their results and argue about 
them.
    For a long time there was very little progress in 
understanding the sensitivity. The range kind of stayed the 
same for a long time. The bottom end is 1.4 degrees celsius, 
which is about 2\1/2\ degrees, up to about 6 degrees, with a 
mid range 2 to 4. Most of the modeling work comes out in that 2 
to 4 range, meaning that for a doubling of CO2 you would expect 
2 to 4 degrees increase in surface temperature.
    Recently there has been more progress----
    Mr. Waxman. What does this debate mean to us as 
policymakers?
    Dr. Gulledge. Well, the sensitivity of the climate is going 
to determine what the level of impacts is going to be.
    Mr. Waxman. And does Dr. Christy have a different view, 
that he thinks the impact is going to be less?
    Dr. Gulledge. I can't characterize his view on that.
    Mr. Waxman. Is that accurate, Dr. Christy? Do you think it 
is going to be less of an impact?
    Dr. Christy. It will be on the low end.
    Mr. Waxman. The low end?
    Dr. Christy. Yes.
    Mr. Waxman. So, therefore, if we view it on the low end, 
there is less for us to do; if we view it as a higher-end 
problem, there is more for us to do? Is that an accurate 
statement for policymakers?
    Dr. Christy. Maybe if I would just characterize it simply 
this way: if the world uses 10 terawatts of energy right now 
and you wanted to have a 10 percent impact on that, you would 
need 1,000 nuclear power plants, 1 gigawatt. So if you want to 
add 10 percent impact on the emissions it would take 1,000 
nuclear power plants.
    Mr. Waxman. That is one way. The question is how much of a 
problem we have, therefore how much of a solution. Your views 
seem to be the problem is not as great.
    Dr. Curry, Dr. Christy discussed a number of studies of his 
that downplay the risk of climate change and dismiss the 
capabilities of climate models, and he seems to suggest that 
these studies undermine the arguments for taking prompt action 
to address global warming. Do you want to comment on that?
    Dr. Curry. Yes. Looking at one very small location or 
region to try to infer, climate models are not capable of 
resolving at the level of one city or one small region at this 
point, so the issue of one small region in California 
disagreeing with some inference about what--climate models talk 
about things on larger scales, continental, southeast United 
States, that kind of a scale it can talk about. It can't talk 
about at the county level or the sub-State level.
    I mean, that is not what we are able to do, so I don't 
think that we can disprove climate model simulations by looking 
at temperature records in one location. That is basically what 
I would say. So I don't think that those kinds of studies 
refute climate model predictions in any way.
    Mr. Waxman. Dr. Curry, in your written testimony you note 
that high-level NOAA officials and selected scientists from the 
National Weather Service have repeatedly categorically denied a 
connection between global warming and increased hurricane 
intensity, yet several peer-reviewed studies published in top 
science journals, including your own study, have found evidence 
of such a connection.
    Have those studies been proven wrong in any way so as to 
provide a basis for the NOAA denials? And, if not, could you 
please discuss the implications of a Government science agency 
such as NOAA issuing such categorical denials while completely 
disregarding the most recent credible scientific evidence.
    Dr. Curry. The two papers that were published during last 
year's hurricane by Kerry Emanuel, and the one led by Peter 
Webster talking about the increase in hurricane intensity, 
these were two papers that were very provocative, landmark 
studies done by very reputable scientific groups. They 
generated an enormous amount of attention, and they have 
basically been categorically ignored by NOAA and their 
testimony. They have specifically said that it does not have to 
do with global warming.
    It puzzles me because this seems to be driven by a few 
scientists in NOAA. I don't believe that if NOAA administrators 
had talked to scientists at the National Climatic Data Center 
or to scientists at the Geophysical Fluid Dynamics Laboratory, 
that they would have gotten that kind of assessment. So I don't 
know what was driving those kind of statements. Not to even 
mention that there was a debate underway to me seems 
irresponsible because the statements by NOAA are, by default, 
you know, the official Government position on this subject, and 
it is not consistent with the current published research and 
the scientific debate that is underway.
    Mr. Waxman. Well, it would be good for us to hear from them 
and see what they say, challenge them on that point, see their 
reaction.
    I see the red light is on.
    Chairman Tom Davis. You can do a couple more questions.
    Mr. Waxman. I can do a couple more questions? I guess the 
thing that is always perplexing to us when we hear about a 
scientific dispute is to figure out what that means in terms of 
how much time we have to do something.
    Dr. Pielke, I remember the debate on the deterioration of 
the ozone layer. It came up in 1977. Believe it or not, I was 
here in 1977. I worked on the Clean Air Act revisions. I 
remember people coming in and saying the argument that 
chlorofluorocarbons is causing deterioration of the upper ozone 
layer, that is just not established, that is a theory but we 
shouldn't do anything about it.
    By 1990 the Congress was looking at the Clean Air Act 
revisions again and we put in a very strong provision, stronger 
than the Montreal Protocol, because we felt that we ought to do 
something about the problem, even though it was a global one 
and Montreal Protocol hadn't been worked out, I don't believe. 
I guess we were still working on it, and the fact we were 
working on it pushed them to resolve it internationally.
    If there is an issue and we decide we had better do 
something about it, do you think we ought to be stopped in the 
United States from doing something until everybody is doing it? 
Or do you think that we ought to show some leadership and then 
others will go along with us, particularly in the area of 
developing resources to combat pollution or emissions where we 
can be out front if we take the lead in it?
    Dr. Pielke. Let me say I am very familiar through my own 
research with your early efforts on climate change following 
ozone, and they are to be commended because there was some very 
forward thinking there. It seems to me that this debate that we 
just saw between scientists and talking about the science, it 
becomes irrelevant if we can come up with policies that make 
sense in the short term without having to have some specificity 
about the long-term costs and benefits of some global policy. 
So the United States should be in the lead. It should be 
participating internationally. Most importantly, it should be 
continually bringing new options to discuss.
    Europe is having tremendous difficulty meeting their own 
targets. They need new options. The United States shouldn't 
stick its head in the sand. I agree with some of the critiques 
of the administration's position. They are simply using the 
wrong metric of success, and asking what are the effects of 
your policies on outcomes is the right question. But you can't 
beat something with nothing, and right now what I see is there 
is a lot of debate about let's take action, but not a lot of 
specificity about, all right, who is going to take what actions 
on what time scale at what cost.
    Mr. Waxman. Do you think it would be helpful for the State 
of California, which is almost like an independent nation--10 
percent of the automobiles, or at least 10 percent, are bought 
and sold in California--to have tighter emissions standards? It 
is not going to solve the problem for the planet, but it 
certainly does drive action by the Federal Government and 
internationally if they put out standards and the technology to 
accomplish those standards is developed, and hopefully that is 
going to be, I think, an economic boon to those who work on it 
in California.
    Dr. Pielke. Yes. I think the States are laboratories for 
experiments, and that the States should be allowed to see what 
they can do using a variety of different approaches the Federal 
Government can evaluate, and we need to evaluate at the same 
time what is working, what is not working. If it works and they 
work as advertised, scale them up to the Federal level. If they 
don't, say, well, that is too bad. We will try something else. 
But that is part of introducing new options is allowing States 
and communities to experiment.
    Mr. Waxman. Well, that is one of my debates with Mr. 
Connaughton, because it seems that the administration is 
telling the States, don't you go ahead of us, and then making 
sure that the Federal Government moves as slowly as possible, 
even though we already have some technology, and tell us 
basically to wait until way, way later until we get a silver 
bullet like hydrogen.
    I appreciate your comments, all of you. Thank you, Mr. 
Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I apologize. I had 
another meeting to go to, so I didn't have the benefit of all 
the oral testimony. I have had a chance to look at some of the 
written testimony.
    If I could just start with you, Dr. Curry, I agree it sends 
confused signals when the head of the Weather Service, for 
example, doesn't even acknowledge this is a debate that is 
ongoing. There is no debate, is there, to the fact that surface 
water temperatures, for example, in the Gulf increased last 
summer, is there?
    Dr. Curry. In the scientific literature, no, but you will 
find certain scientists telling the media that it is not 
increasing.
    Mr. Van Hollen. That surface water was not higher during 
the last hurricane season?
    Dr. Curry. Yes. I participated in a debate where the person 
I was debating actually said that, scientific debate, so what 
gets published in the scientific literature versus what gets 
out there publicly is diverging. That is what I am trying to 
say.
    Mr. Van Hollen. Right.
    Dr. Curry. So the published scientific research agrees that 
sea surface temperature has increased since 1970.
    Mr. Van Hollen. All right. Is there agreement, even though 
skeptics, those that are trying to say something different than 
what the scientific consensus is, do they agree that if surface 
water temperatures are increasing that it would have the effect 
of increasing the intensity?
    Dr. Curry. Yes.
    Mr. Van Hollen. Everyone is agreed on that, but they are 
disputing that the underlying fact is so?
    Dr. Curry. Yes. People, the skeptics, may say, well, wind 
shear may counteract all that. Wind shear is really more 
important. Some people have said that, but, again, theory, 
models, and the data support the link with sea surface 
temperature increase.
    Mr. Van Hollen. All right. Is there a dispute on this panel 
as to the increase in sea surface temperature? No? OK.
    I would like to ask you if I could, Dr. Christy, because, 
as I understand your testimony, you have raised certain 
uncertainties about the science, and obviously in every area 
there is a range of predictions, but, as I understand it, you 
were on the panel that drafted the American Geophysical Union's 
official statement on climate change in 2003; is that correct?
    Dr. Christy. That is correct, sir.
    Mr. Van Hollen. And did you agree with the findings of that 
panel?
    Dr. Christy. Yes.
    Mr. Van Hollen. You did? All right. Because, as I 
understand it, the statement acknowledges that the global 
climate is changing and human activities are contributing to 
that change. So you agree with that statement; is that right?
    Dr. Christy. Yes.
    Mr. Van Hollen. All right. And I understand that, according 
to the AGU, it is virtually certain that increasing greenhouse 
gas concentrations will cause global surface climate to be 
warmer. Do you have any reason to dispute that?
    Dr. Christy. No, and the reason that is stated exactly that 
way is there is no magnitude associated with that statement, 
and my famous quote that was all over the papers and NPR and so 
on was, here we are after changing deserts into farmland and 
forests into cities and throwing dust and soot and aerosols in 
the atmosphere and adding greenhouse gases, the climate just 
has to respond some way. It should change because of human 
activities.
    Mr. Van Hollen. So you have been on a number of panels, 
including the National Research Council, as well. Are there any 
findings or statements that have come out of those panels that 
you served on that you disagree with?
    Dr. Christy. That is a big question, and I had problems 
with some, yes.
    Mr. Van Hollen. OK. Did you have a dissenting opinion in 
any of those?
    Dr. Christy. In one case I said, please put a footnote in 
there that says John Christy takes this view on this particular 
issue, but the pressure was just so hard and placed upon me as 
sort of the only person on there, that there had to be a 
consensus, and so we went ahead with graying up one of the 
words.
    Mr. Van Hollen. You grayed one of the words. If I could 
just ask, on the surface temperature issue, because I just want 
to make sure, if you agree that there is an increase in the 
surface temperature, and I understood no one to sort of 
disagree with that scientific conclusion, would you agree that 
certainly one reason surface temperatures may be rising is a 
result of global climate change produced by human activity?
    Dr. Christy. The surface temperature has risen, and part of 
the cause of that is due to the enhanced greenhouses that 
humans have put into the atmosphere.
    Mr. Van Hollen. OK. And you also agree that increased 
surface water temperature leads to more intense hurricanes?
    Dr. Christy. I am not an expert on hurricanes.
    Mr. Van Hollen. All right. Fair enough.
    Thank you, Mr. Chairman. I just have one question on the 
issue of short-term reductions that you mentioned. Have you put 
forward a set of sort of policy recommendations as to what 
short-term steps we can take?
    Dr. Pielke. I have some listed. They have gone by different 
names as no regrets options, or co-benefits, or ancillary 
benefits. It seems that we have the cart and the horse mixed 
up. We are trying to look to reduce greenhouse gases and say, 
well, look at all these short-term benefits that come along 
with it. It seems to me turning it around and saying, well, 
let's do those things on technological innovation, energy 
efficiency, foreign policy, and hey, look, we get the 
greenhouse gas thing for free on the side. It seems that we 
have taken the most politically intractable part of this 
problem and put it at the center.
    If anyone had the answer we wouldn't be sitting here today, 
so that is why I think that the wonderful resources of our 
technologists, our scientists, ought to be put to the test, not 
of the scientific questions about hurricanes and temperature, 
but give us some options, give us some things that you folks 
can turn into legislation, we can experiment with, and maybe 
has a real effect in the short term.
    Mr. Van Hollen. I certainly agree that we should be 
pursuing immediate options. I think one of the obstacles, 
frankly, to getting people to move forward on some more 
immediate options is the fact that some people continue to 
cloud the issue about whether there is any reason for us to be 
moving forward.
    For example, let me ask you, the administration's budget 
this year actually cut the amount of funding for energy 
efficiency programs. There is some increase in some of the 
renewable energy programs, but wouldn't you agree that one of 
the areas we could get some very short-term gains in reducing 
greenhouse emissions is through greater efficiency standards, 
and that it is short-sighted to cut the budget for work in that 
area?
    Dr. Pielke. I would agree with that.
    Mr. Van Hollen. Thank you.
    Thank you, Mr. Chairman.
    Mr Marchant [presiding]. Thank you.
    Dr. Pielke, as a former Hill staffer, you know how things 
work around here.
    Dr. Pielke. Well, I was an intern, so I got coffee and 
stuff, but yes.
    Mr. Marchant. You at least know how people like their 
coffee. [Laughter.]
    What unique message do you have for the Members and 
staffers to help them as they navigate the politics to arrive 
at appropriate responses to climate change?
    Dr. Pielke. I think one of the most instructive things for 
me is to take a look at hearings over time on this issue, and 
if you don't look at the date they look about the same over a 
decade, 15 years. The discussion is always on the science and 
trying to get some consensus on the science.
    In my testimony I cite a poll done by the National Journal 
of Members of Congress, and it asked Members of Congress, some 
select group, what are your views on global climate change, and 
I don't have the exact numbers in front of me but something 
like 98 percent of Democrats thought it is a real serious issue 
and 23 percent of Republicans, a big partisan divide there.
    But they asked a second set of questions: what sort of 
policies do you think make sense? They had to do with energy 
efficiency, CAFE standards sort of things. There was much 
greater agreement.
    Scientists are going to be arguing about hurricanes and 
climate change 10 years from now. I think that is a safe 
prediction. I think the debate has to start moving on to a 
focus on options, and let's set aside the science. The science 
is plenty good enough and it has been for a long time for 
action to take place. Let's move the discussion. When we ask 
questions about hurricanes and climate change I would like to 
see a followup question: what can we do about it? What effect 
will energy policies have on hurricane behavior? How about 
adaptation? What can we do to make building codes stronger, 
land use policies?
    Let's move from, do we know how many hurricanes are going 
to occur to, well, there are going to be a lot. There might be 
an awful lot or a terribly awful lot, but the policies that we 
are going to be dealing with are probably going to be the same 
in either case. So my recommendation is, as interesting as the 
science is, let's move beyond and focus everybody. Policymakers 
a lot of times set the agendas for the bully pulpit. Ask the 
policy questions, not the science questions.
    Mr. Marchant. Dr. Christy, Dr. Curry said that you can't 
make an assessment based on a localized region, like in your 
studies. Would you like to comment on that?
    Dr. Christy. That is a correct statement, that one small 
region like that isn't something you would want to test your 
climate models on. What I did was I used lots of climate models 
on one region, went to another region, did the same thing that 
I mentioned in here but not in my oral testimony. The entire 
southeast is cooling over the past 120 years, and not one 
single climate model in every run we have ever checked has been 
able to reproduce that, not once out of 50 some odd.
    But then I think the bigger one is that when you look at 
something the size of the tropics, that is one-third of the 
globe. That is not a trivial part. And so the carbon dioxide, 
the enhancement of its concentration will have an effect on the 
climate, and there are lots of reasons to not want to burn 
carbon for energy. It is quaint, if you think.
    A hundred years from now they will look back and say how 
quaint it was that they burned carbon for energy back then. And 
so I am not sitting here saying let's not do anything about 
climate change, but as a climate scientist looking at so many 
data sets that we build ourselves we don't see the catastrophic 
direction of the climate system.
    Mr. Marchant. Your experience in Africa led to your 
concerns about unintended consequences of our policy choices 
regarding mitigating climate change. How should policymakers 
look at those unintended consequences versus the pressure for 
action?
    Dr. Christy. Well, let me come to the State of Alabama. We 
have many poor people in my State. If the regulatory climate is 
to say let's increase taxes and drive energy prices high so 
that is a way to reduce CO2, that will have a very bad effect 
on the poorest in my State, and I would be much against 
something like that. It will have no effect on the climate. We 
would never be able to measure the effect, in any case.
    I really like a lot of the things Roger here has said about 
what kind of policy decisions that should be made are those 
that have some effects that have many benefits, and I gave a 
little example about the thousand nuclear plants can make a 10 
percent dent in the thing, but who wants to do that. I don't 
know.
    So just remember there are poor people out there. Energy 
makes their lives healthier, it makes their lives longer, and 
to make energy less accessible to them is, in my view, not the 
right thing to do.
    Mr. Marchant. So you are saying that the thousand nuclear 
plants could make a difference, if you just did them for 
ecological reasons, but what if they are done for economic 
reasons as well, that energy coming out of them is cheaper, as 
well?
    Dr. Christy. You know, I am not an energy expert, but I 
would say you are dealing then with other issues like energy 
security. If you had your own energy source, you wouldn't have 
to deal with all the things we see in the newspapers today. So 
there are a lot of reasons to develop other kinds of energy 
than what we use now, as long as we keep it affordable and 
accessible, because that is important for people's lives, and 
especially people I deal with in Alabama.
    Mr. Marchant. And affordability and accessibility almost 
assures continued use and continued escalating use.
    Dr. Christy. Yes. I don't think anyone here would disagree 
with the statement that energy demand will rise.
    Mr. Marchant. With cheaper.
    Dr. Christy. No matter what, regardless of price. It brings 
so many good benefits immediately to human life, health, and 
longevity that it, especially around the world in the Third 
World, energy use will rise.
    Mr. Marchant. Mr. Shays.
    Mr. Shays. I thank the gentleman.
    I am so, so sorry I was not able to be here. I do know I 
don't do this often, but I know there is written testimony that 
I can review, and this will be testimony I will review.
    My sense is that we basically, Dr. Curry, can listen to 
your skepticism at first and your conviction now that we do 
have a global warming problem, and that it is impacting the 
media, which sometimes likes to dramatize, that storms are 
being impacted because of global warming. Your nodding of the 
head is a yes, correct? It needs to be recorded.
    Dr. Curry. Yes.
    Mr. Shays. And my sense to you, Dr. Christy, is that when 
you look at sea level temperatures and so on it is just an 
added confirmation that global warming is a factor, as well, 
correct?
    Dr. Christy. Yes, that human effects are causing a change 
in the radiation balance that leads to higher temperatures, 
yes.
    Mr. Shays. When we put the two of you together, my sense 
with you, Dr. Pielke, is that you are looking at it from a 
policy standpoint and, you know, there are things that can be 
done in the short run, and so on; is that correct? Yes. And 
you, Dr. Gulledge, you look at the overall policy of how we 
deal with this issue?
    Dr. Gulledge. I am sorry, I am not a policy analyst. I am a 
scientist.
    Mr. Shays. Then your point, your primary point that you 
want me to hear? I am sorry that it is redundant.
    Dr. Gulledge. My primary point is that I agree very much 
with Roger's statements that this is the wrong panel sitting 
here. There are not enough questions left about the science 
that we should actually be taking up your time, in my view.
    Mr. Shays. In other words, case closed, answered?
    Dr. Gulledge. Any differences you may have perceived about 
the science on this panel are actually quite minor and stem 
more from differences in perspective than understanding the 
science.
    Mr. Shays. Right. And you speak from what background?
    Dr. Gulledge. I am a scientist. I am an ecosystem 
ecologist. I study the carbon cycle.
    Mr. Shays. Well, for you it may not be significant; for me, 
it is about time that we had people sit at a table and say what 
is the obvious. I get the sense from you, Dr. Pielke, that even 
if we did policies that were not addressing the problem that 
existed, it would still be a benefit to our world?
    Dr. Pielke. If we organize our approach to climate change 
in that manner. The way that the international approach is set 
up under the Framework Convention is it separates out the long-
term climate policies from the sustainable development, energy 
efficiency, and so it separates those out, and so we don't talk 
about them at the same time.
    Mr. Shays. So with this in mind, our first panel said 
global warming is real and it is being caused in significant 
measure by humanity, you all just adding voice to that as 
scientists, I would like you to tell me your biggest regret 
and, if you could get the President to do one thing, just one 
thing, what it would be.
    But what is your biggest regret? I mean, for me a big 
regret would have been not having minivans, SUVs, trucks, and 
cars all getting the same mileage when we did it so people 
couldn't go off in that direction, or another one, that fuel 
was so cheap we didn't care about the wasting of energy. That 
would be a big regret, because I think, had we dealt with it 
differently, it would have had a huge impact today. We would be 
in a different place.
    I would like each of you to tell me what your biggest 
regret is and what you would like to see happen. I will ask the 
chairman to give me a little latitude, since there are only two 
of us, just to pursue this. I will start with you.
    Dr. Gulledge. Thank you. That is a very large question, 
and----
    Mr. Shays. I am going to start with biggest regret, and 
then I am going to ask you to say the most significant thing we 
could and should do now.
    Dr. Gulledge. OK. I am going to step back from my 
profession as a scientist and speak as a well-informed American 
citizen who has followed this issue for a long time. My biggest 
regret as an American is that the United States didn't take 
leadership in multi-lateral, international negotiations to deal 
with climate change two decades ago, and released its 
leadership role to other countries so that in the end we ended 
up with something that our Congress didn't like and our country 
wasn't engaged in developing, and now we are just being left 
behind and we do not have a leadership role on one of the 
biggest issues in the world. I feel terrible about that.
    Mr. Shays. I am so happy I asked that question, because 
that one comment alone was worth coming here.
    Dr. Gulledge. Now that is just my view as a citizen.
    Dr. Pielke. My view is fairly wonky. In 1990 when Congress 
was debating creating legislation to create the U.S. global 
change research program there was a parallel effort proposed at 
the time called MARS--Mitigation and Adaptation Response 
Strategies. It was envisioned at the time to be as large as the 
scientific research program, to focus on policy options. 
Through the mechanics of the congressional process it got axed, 
so we focused----
    Mr. Shays. What was that called?
    Dr. Pielke. MARS, Mitigation and Adaptation Research 
strategies. I can send you some information.
    Mr. Shays. And what year was that?
    Dr. Pielke. It was 1990. And so, instead of focusing on 
response strategies, the focus became on reducing 
uncertainties. Given that we missed that opportunity to focus 
on response strategies, it should come as no surprise that we 
are still talking about science over policy.
    Mr. Shays. Thank you. These are really helpful.
    Dr. Christy. I suppose my biggest regret was that the 
investment in the observing system overall from space, as well 
as the surface, has lagged in terms of its ability to be 
precise and determine long-term changes with much less 
uncertainty.
    Mr. Shays. From your standpoint, if we had better 
technology in space looking at the Earth----
    Dr. Christy. And around the Earth, as well.
    Mr. Shays. Right.
    Dr. Christy. Yes, on the surface. And I suppose my one 
remark about the future would be----
    Mr. Shays. No, not yet.
    Dr. Christy. OK. I am sorry.
    Mr. Shays. I am asking the chairman to indulge me. I know 
we got another--I didn't see Mr. Waxman come back, so maybe he 
won't indulge me, but would you at least answer this question?
    Dr. Curry. OK. I would echo Jay Gulledge's comments. The 
fact that we don't have a plan at this point and that we are 
not in a leadership role is extremely unfortunate. As a 
scientist, I have avoided making any kind of specific policy 
recommendations for several reasons, so as to appear that I 
don't have an agenda, and that I am not personally qualified to 
evaluate all the technologies, the politics, and the economics, 
but----
    Mr. Shays. I will yield back. I am sorry.
    Dr. Curry [continuing]. But the fact that we do not have a 
plan is very disturbing.
    Mr. Shays. Do you mind if I just ask then this question?
    Mr. Waxman. Fine with me.
    Mr. Shays. Then just tell me the one thing each of you 
would like to see--I realize there is lots, but maybe it is the 
first thing or whatever, the one big thing that you would like 
to see happen. Yes, sir?
    Dr. Pielke. I would like to see increased congressional 
oversight of the climate change science program and climate 
change technology program going back to Public Law 101-606 that 
calls for those programs to provide policy options.
    Mr. Shays. By oversight, you want to see more money put 
into it?
    Dr. Pielke. No. I want to see you bringing the leaders of 
those programs and the executive branch here and saying, what 
are the options that are resulting from this multi billion 
dollar investment?
    Mr. Shays. OK.
    Dr. Pielke. You get a lot of good science. It is great 
science. But you are not getting many options.
    Mr. Shays. OK. Thank you.
    Dr. Christy. I would just go along with the Hippocratic 
Oath: first, do no harm. Think of the poor people out there. If 
energy costs rise, that does specifically and directly affect 
them.
    Mr. Shays. OK. The chairman is gaveling me, so the two of 
you will be on record. I thank the chairman.
    Mr. Marchant. Thank you. We have some witnesses that need 
to catch some flights, so we are going to go to the third 
panel.
    Mr. Shays. Fair enough.
    Mr. Waxman. Mr. Chairman, as this group leaves I just want 
to comment that energy prices have doubled over the last 5 
years and it wasn't because of our efforts to deal with global 
warming. Maybe the prices would have not risen so high if we 
had done something about energy efficiency, because that would 
have helped us in the area of climate change, as well.
    Mr. Shays. Thank you.
    Mr. Marchant. We will now recognize the third panel as they 
are coming up here. We will reconvene in about 3 minutes.
    [Recess.]
    Mr. Marchant. We are still missing one witness. Our first 
witness is Mr. Theodore Roosevelt, IV, chairman of strategies 
for the global environment, the Pew Center on Global Climate 
Change. Another of our witnesses present is Mr. Marshall 
Herskovitz, and he is a producer, director, and writer of 
television and film. And the other witness that we expect 
shortly is Mr. Andrew Ruben. He is vice president of corporate 
strategy and sustainability of the Wal-Mart Stores, Inc.
    Welcome, gentlemen. It is customary for you to have a 5-
minute opening statement and then we will have questions.
    Welcome, Mr. Roosevelt.
    It is our custom to swear the witnesses in, so if you will 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Marchant. Thank you.
    Mr. Roosevelt.

 STATEMENTS OF THEODORE ROOSEVELT IV, CHAIRMAN, STRATEGIES FOR 
  THE GLOBAL ENVIRONMENT/PEW CENTER ON GLOBAL CLIMATE CHANGE; 
     ANDREW RUBEN, VICE PRESIDENT, CORPORATE STRATEGY AND 
SUSTAINABILITY, WAL-MART STORES, INC.; AND MARSHALL HERSKOVITZ, 
         PRODUCER/DIRECTOR/WRITER, TELEVISION AND FILMS

               STATEMENT OF THEODORE ROOSEVELT IV

    Mr. Roosevelt. Thank you, Mr. Chairman. Thank you, Ranking 
Member Waxman and members of the committee. It is a pleasure to 
be here, to see old friends. I want to salute you and your 
committee for undertaking this hearing. I think it is extremely 
important.
    As the chairman mentioned, I am the chair of global 
strategies, which is the umbrella organization for the Pew 
Center on Climate Change. I am also co-chair of the Alliance 
for Climate Protection and am on the board of the World 
Resource Institute.
    Earlier you just heard, I think, some very good testimony 
from the panel on science, and also in the first panel. I am 
not going to dwell on this other than to say I believe that the 
science on this is compelling and shows clearly that human 
activities contribute to global climate change. Sometimes one 
hears the phrase, the science is not conclusive. I daresay all 
of us believe in Einstein's general theory of relativity, but I 
challenge certainly myself and probably most of you could you 
prove that theory conclusively. I couldn't even prove 
conclusively Newton's law of gravity, but when I take this 
bottle and bring it over to the edge and push it over I know 
that bottle would drop.
    Prudence dictates that we take climate change seriously. A 
farmer who has got his crops and livestock in a barn knows the 
possibility of lightning hitting that barn is probably remote, 
but he will take out a policy of insurance because he knows if 
lightning does hit that barn he will be wiped out. We know the 
possibility of damage from global climate change is not remote, 
and the longer we delay addressing this issue the harder it 
will be for us to find solutions.
    At the Pew Center a variety of companies sit on our 
Business Environmental Leadership Council. We call that the 
BELC. The oil and gas industry is represented by BP and Shell; 
transportation by Boeing and Toyota; utilities by PG&E, Duke 
Energy, and Entergy; high tech by IBM, Intel, HP; diversified 
manufacturing by General Electric and United Technologies. 
These are all companies that recognize climate change is real. 
They want to prepare themselves for a carbon-constrained future 
and they need time to make the necessary changes. They know 
that the risks of inaction outweigh the costs of action.
    For example, Marsh, Inc., which just joined the BELC, said 
in a white paper, ``Climate change is a significant global 
risk. Businesses, if they haven't already, must begin to 
account for it in their strategic and operational planning.'' 
Another leader in the insurance industry addressing climate 
change is Swiss Re, which is not a member of the BELC, but 
calculates that Katrina resulted in $45 billion of losses and 
$10 billion each from Rita and Wilma. Obviously, no one can 
blame damage from one hurricane on climate change, but the 
evidence is pretty clear that, while the overall number of 
hurricanes may not increase, the number of category four and 
five hurricanes will, and with increased violence in hurricanes 
will come increased losses.
    Some companies see attractive investment opportunities in 
meeting the need for renewable energy and increased energy 
efficiency. BP has created an alternative energy division, and 
they plan to invest up to about $8 billion over the next 10 
years. General Electric, in its well-thought-out ecomagination 
initiative, plans to see revenues go to $10 billion over the 
next several years, which represents a doubling of where they 
currently are. Venture capitalists invested $1.4 billion in 
clean technology in 2005, up 43 percent from 2004. The carbon 
disclosure project started with 35 companies in 2003 accounting 
for about $4.5 trillion of assets. Today there are 155 
institutions with combined assets of $21 trillion that have 
signed onto the carbon disclosure project.
    Business, however, cannot do it alone. We need mandatory 
compliance structured in such a way as to take advantage of the 
tremendous power of markets and unleash the creativity of 
American companies and businesses to meet the challenges when 
required to do so. A relevant or perhaps great example of this 
is the extraordinary success of the 1990 amendment to the Clean 
Air Act. A key element in the success of that amendment was the 
cap in trading regime for sulfur dioxide and nitrous oxide. 
That cap in trading regime, which was put in in 1990, resulted 
by about 2003, 2004 in a reduction of about a third of these 
emissions, and they did so without, I believe, any legal suits 
as a result.
    The elements for success in dealing with climate change 
will include greater conservation and efficiency in the use of 
energy and the use of new and better technologies. 
Significantly improving our energy efficiency will improve the 
competitive position of the United States, and in many 
instances will result in lower operating cost. Development of 
new technologies will open new markets for us overseas.
    In conclusion, I would like to leave you with two thoughts. 
Global climate change is a serious issue and we cannot afford 
further delay in addressing it. Second, I have immense 
confidence in the power of this country to create effective 
policies to deal with climate change while maintaining economic 
growth as long as we can muster the political leadership to do 
so.
    Thank you.
    [The prepared statement of Mr. Roosevelt follows:]

    [GRAPHIC] [TIFF OMITTED] T9932.137
    
    [GRAPHIC] [TIFF OMITTED] T9932.138
    
    [GRAPHIC] [TIFF OMITTED] T9932.139
    
    [GRAPHIC] [TIFF OMITTED] T9932.140
    
    [GRAPHIC] [TIFF OMITTED] T9932.141
    
    [GRAPHIC] [TIFF OMITTED] T9932.142
    
    Mr. Marchant. Thank you.
    Mr. Ruben.

                   STATEMENT OF ANDREW RUBEN

    Mr. Ruben. Mr. Chairman and Ranking Member Waxman and 
distinguished members of the committee, my name is Andrew 
Ruben. I am vice president of corporate strategy and 
sustainability for Wal-Mart Stores. On behalf of Wal-Mart 
Stores, we appreciate the opportunity to provide testimony on 
this important issue.
    As our CEO, Lee Scott has said, business and the 
environment are not mutually exclusive. We are passionate about 
making Wal-Mart a more environmentally friendly company and 
believe that greenhouse gases can be cost-effectively reduced 
throughout the economy.
    I have submitted in writing my testimony. I would like to 
summarize the testimony for you here.
    Today I am prepared to share the various initiatives that 
Wal-Mart has undertaken and to highlight how our learnings with 
environmental sustainability make us a better business. As the 
largest retailer in the world, the largest private consumer of 
electricity in the United States, and the owner of one of the 
largest private truck fleets in the country, we recognize the 
effect we have on the environment.
    We similarly recognize the opportunity we have for 
leadership. Last year, Lee Scott announced Wal-Mart would make 
sustainability a key part of the company's strategy and 
outlined three aspirational goals. Lee Scott talked about being 
supplied 100 percent by renewable energy, creating zero waste, 
and selling products to sustain our resources and the 
environment.
    We also have more near-term goals. For example, we will 
reduce the solid waste in the back of our stores, clubs, and 
distribution centers 25 percent by 2008; our existing 
facilities will use 20 percent less energy within 6 years; and 
new facilities that are being built will use 25 to 35 percent 
less energy in the next 2 years.
    We are already making progress toward these goals. For 
example, we have recently retrofitted our entire fleet with 
auxiliary power units. They are essentially more efficient 
diesel engines that allow, while the truck is idling, will 
allow auxiliary power for heating and cooling of the cab. That 
change, alone, saves 10 million gallons of diesel per year, 
avoids 100,000 metric tons of CO2, and, by the way, saves our 
business $25.5 million in the avoidance of that fuel. It is a 
clear example about how these efforts make us a better 
business.
    Another example where we can help our customers is compact 
fluorescent light bulbs. If the customers that go through our 
store in a given week simply buy one high-efficiency compact 
fluorescent light bulb, as opposed to today's traditional 
incandescent bulb, that will put $3 billion back into their 
pockets on electrical savings. It will equate to 100 million 
metric tons of CO2, roughly five times Wal-Mart's global 
footprint, and, by the way, save a billion incandescent bulbs 
from the landfill.
    Today less than 10 percent of the light sockets in the 
United States currently use these high-efficiency compact 
fluorescent bulbs. You can start to see the immense potential 
we have in front of us.
    We realized that we have similar opportunity to work with 
our suppliers. For example, we recently visited a factory, Dana 
Undies. If you are wondering, yes, Dana Undies does make 
underwear. We shared with them some of the learnings that we 
had from our stores. We talked to the CEO of the company and 
the plant manager. After making changes from that conversation 
to their lighting and their HVAC or heating and air 
conditioning systems, Dana Undies now sees a 60 percent 
reduction in their energy costs. It is better for us, it is 
better for our customers, it is better for the environment, and 
yes, it is also better for Dana Undies.
    Some of the opportunities to create change are less 
obvious. For example, we recently removed 2 grams of weight 
from our private label of water that is on our shelves. That 
small change saved 5 million pounds of PET, virgin PET, from 
ever going into production every year. Our produce buyers are 
looking at more ways to buy locally grown produce, such as 
expanding a sourcing program for peaches from two locations in 
the United States to more than a dozen. That not only saves 
transportation; it also saves refrigeration, it saves 
packaging, while increasing the freshness of that product while 
it reaches the stores.
    Finally, packaging on something as simple as laundry 
detergent, working with Unilever we introduced a product 
called, All Small and Mighty. It is essentially a concentrated 
laundry detergent. It is one-third the size of a traditional 
bottle. It saves packaging, transportation, and water. In fact, 
if all detergent that was made made similar changes, we would 
avoid thousands of deliveries to our stores and to stores 
across the United States.
    While this is a business strategy, we are sharing 
everything we are doing. Simply stated, sharing these 
innovations and sharing these learnings allows greater scale 
and allows change to occur at a more rapid pace.
    Two years ago I could not have imagined that we would have 
over 100 environmental NGO's, activists, and academics at our 
headquarters in Bentonville, AR. Two years ago I would have 
never believed that they would be coming to join 150 executives 
from some of our largest suppliers. Yet, last week, all 
together with our senior leadership, we brought these groups 
together and spent a day addressing business's potential role 
in climate change.
    The members of this committee play an important role in 
what you are doing today in bringing this topic to bear and 
having this conversation. We appreciate the forum that you 
offer us and look forward to any ways that we can help provide 
insight into what has been going on at one business.
    [The prepared statement of Mr. Ruben follows:]

    [GRAPHIC] [TIFF OMITTED] T9932.143
    
    [GRAPHIC] [TIFF OMITTED] T9932.144
    
    [GRAPHIC] [TIFF OMITTED] T9932.145
    
    [GRAPHIC] [TIFF OMITTED] T9932.146
    
    [GRAPHIC] [TIFF OMITTED] T9932.147
    
    [GRAPHIC] [TIFF OMITTED] T9932.148
    
    [GRAPHIC] [TIFF OMITTED] T9932.149
    
    [GRAPHIC] [TIFF OMITTED] T9932.150
    
    [GRAPHIC] [TIFF OMITTED] T9932.151
    
    [GRAPHIC] [TIFF OMITTED] T9932.152
    
    [GRAPHIC] [TIFF OMITTED] T9932.153
    
    Mr. Marchant. Mr. Herskovitz.

                STATEMENT OF MARSHALL HERSKOVITZ

    Mr. Herskovitz. Thank you, Mr. Chairman, Ranking Member 
Waxman, members of the committee for this chance to appear as 
you investigate the issue of global warming. My name is 
Marshall Herskovitz. I am a producer, writer, and director in 
Los Angeles. I have made such films as Legends of the Fall, 
Traffic, Last Samurai, and in television Thirty Something. I 
currently serve as president of the Producers Guild of America.
    I have had a long involvement with environmental issues, 
but I believe the pressing urgency of global warming transcends 
any other, and I have been concerned for several years now, as 
a communicator, that no clear vision regarding this crisis is 
being communicated to the American people.
    Now, in spite of our science panel today, I feel that a 
consensus is forming in the scientific community around the 
world, around the number of 80 percent. That is 80 percent of 
carbon emissions need to be cut. There is some disagreement as 
to whether that should be done in 50 years, 40 years, or 10 
years, but some very, very, very intelligent scientists, 
including someone who was supposed to be here today, Dr. 
Hansen, and also the head of the Intergovernment Panel on 
Climate Change, have all said the real number is 10 years--80 
percent carbon emission cuts in 10 years.
    That is not even on the agenda of any legislative body 
anywhere in the world, and there is a reason for that, and that 
is because it seems like it is fundamentally impossible to 
achieve such a cut. It is not how business works. It is not how 
government works. Such precipitous action would seem to 
decimate any economy and dismantle the American way of life.
    I, however, think these assumptions are totally incorrect, 
as I will try to show, as is another assumption that is rarely 
said out loud but is insidious, nonetheless, and that is the 
belief that we Americans have grown so spoiled and are so 
unwilling to face hardship that we will sacrifice our 
children's future for the sake of our own present comfort, 
which is why I am grateful to appear before this committee, 
because I am in the process of starting an organization whose 
purpose will be to overturn these assumptions and communicate 
what we believe is a greater truth about our national 
character.
    We have actually been given a great opportunity at this 
moment in America, a challenge that is not only far from 
impossible but, in fact, has a blueprint for success that was 
laid down by our own parents and grandparents 65 years ago.
    In December 1941 this Nation entered a total and 
unconditional struggle against the axis powers. Those words 
total and unconditional are very important. From that moment 
until August 1945, as we well know, every single man, woman, 
and child in the United States devoted themselves to the one 
goal of defeating our enemies. Every aspect of people's lives 
was affected: how they work, how they drove, how they ate, 
where they lived, not to mention the millions who were killed 
and injured in battle.
    Let us also remember that within the first 3 months after 
Pearl Harbor every single automobile plant in the United States 
had been shut down and retooled for making tanks. Not one 
automobile was manufactured in the United States between 1942 
and 1946, and I have never read of anyone objecting. No price 
was too great if it meant protecting our freedom. But let's 
look exactly at what that price was. Again, I speak here of the 
economic cost, not the human cost, which obviously we still 
honor today.
    When all those automobile plants were being retooled, Ford, 
Chrysler, and General Motors continued to be profitable. 
Ordinary citizens put up with 3 years of food and gas rationing 
and other privations, and the Federal Government ran up 
unprecedented deficits. The result was that America emerged 
from the war stronger and richer than it had ever been.
    Similarly, the effort necessary to fight global warming 
does not in any way spell depression or deprivation for our 
country; rather--and this is the key point--it is our current 
lack of action, or what I fear will be our half action, that 
will inevitably lead to disaster.
    A national commitment, a war against global warming would 
cause all sorts of discomforts and discomfitures, but would 
also stimulate new industries and new parts of the economy. 
Most of the technology needed to cut those emissions already 
exist. What we need is the national will and the willingness of 
our Federal Government to take the lead, which is why we are 
starting this organization, because, as we have discussed here 
today, that national will does not exist, and the American 
people are not generally aware of any plan that would make the 
kinds of cuts our scientists are calling for. And if they are 
not aware of it, how can they debate it?
    The ideas are out there. We have heard some of them today: 
shifting industrial subsidies, trapping CO2 before it leaves 
coal-fired smokestacks, plug in hybrids, cellulosic ethanol. 
There are hundreds of ideas, brilliant ideas, all of them 
useless unless the Federal Government either pays for them or 
indemnifies businesses against the extreme financial risks 
involved.
    For the Federal Government to do that, it needs an 
unmistakable mandate from the people, which will be the agenda 
of this organization: to use the tools of modern marketing to 
put those ideas before the American people. We will create TV 
commercials, print ads, Web sites, editorials, events, daily 
sound bites for the news media, whatever is necessary to make 
people aware of the remarkable opportunity that lies ahead of 
us.
    As you have heard, millions of Americans are already acting 
to solve this problem in their homes, in their businesses, in 
their local governments. The effort being expended without the 
Federal Government's real leadership is truly remarkable, but 
this crisis cannot be solved from the bottom up.
    Since I am a storyteller I will postulate a slight 
adjustment of history. What if the Germans had been planning to 
invade the United States in 1942? Do you think we could have 
defeated them with ordinary citizens pulling pistols from under 
their beds, through local grocery stores barring their doors 
and windows? No.
    The only way to defeat the Nazis was through the awesome 
power of the American industrial machine, through the tens of 
thousands of tanks and planes and guns, the liberty ships 
coming out of dry docks at the rate of one a week, the millions 
of people working together for a common purpose, led by a 
Government that was willing to endure deficits of 23 percent of 
its GDP in order to make it happen.
    We defeated the axis powers in less than 4 years. We put a 
man on the moon in 7. We can unleash that awesome power again 
and solve this problem in 10 years the same way we did it 
before: by a total, unconditional partnership between 
Government, business, and private citizens.
    This is a moment of potential greatness for our Nation. We 
can reframe the device of discourse that has plagued us for 
years. Global warming is not the province of the right or the 
left; it is a bipartisan issue, a national security issue, a 
survival issue. I believe we must make these changes now, not 
in 30 years, if we want to stop the catastrophe from happening.
    I thank you for your consideration, Mr. Chairman. Thank you 
for holding this hearing.
    [The prepared statement of Mr. Herskovitz follows:]

    [GRAPHIC] [TIFF OMITTED] T9932.154
    
    [GRAPHIC] [TIFF OMITTED] T9932.155
    
    [GRAPHIC] [TIFF OMITTED] T9932.156
    
    [GRAPHIC] [TIFF OMITTED] T9932.157
    
    [GRAPHIC] [TIFF OMITTED] T9932.158
    
    [GRAPHIC] [TIFF OMITTED] T9932.159
    
    [GRAPHIC] [TIFF OMITTED] T9932.160
    
    [GRAPHIC] [TIFF OMITTED] T9932.161
    
    [GRAPHIC] [TIFF OMITTED] T9932.162
    
    [GRAPHIC] [TIFF OMITTED] T9932.163
    
    Mr. Marchant. Thank you, Mr. Herskovitz.
    Do you believe that Americans are ready to make sacrifices 
that you are calling for?
    Mr. Herskovitz. I think Americans are ready to put an 
enormous amount of effort into what I am calling for. I think 
when we use the term sacrifice, we are already misconstruing 
what will take place if we commit ourselves to this war. I 
think that what needs to be done is mostly at an industrial 
level, mostly at a business level.
    But right now we are asking corporations and industries to 
take on a responsibility that their shareholders will not allow 
them to do. The Federal Government has to be the instigator of 
these situations. If you tell the car companies, oh, you have 
to make a car that gets 50 to 60 or 70 miles to the gallon, 
which, by the way, technologically they can do, they are going 
to say to you, how do we know we can sell it?
    The answer is the Federal Government has to mandate it. It 
has to mandate whatever business situation will allow that 
corporation to succeed under those circumstances. That is what 
took place in World War II, and I believe that is what needs to 
take place now.
    Mr. Marchant. You talk about the Federal Government. Do you 
think it is necessary for the Federal Government to make the 
laws? What responsibilities would you place on local 
government, States, cities, counties?
    Mr. Herskovitz. Well, a remarkable number of cities and 
States are already doing that, but I think, as with so many 
things in our country, the resources locally are finally 
limited. It is finally only the Federal Government that can 
create the huge programs that are necessary in order to make 
this work.
    What we are seeing now and what I have seen in the last few 
months as I have learned about this is just a remarkable 
upswelling of energy at the local level, but this problem 
cannot be solved at the local level. What we will find is if 
the Federal Government enables this, sets up these programs, 
you will see, just as in World War II, this incredible energy 
move in to fill up all of the opportunities that the Federal 
Government is going to create.
    The energy is there. Look at these businesses. Look at Wal-
Mart. They don't have to be doing this. There is a way in which 
many, many people in this country are ahead of where the 
Government is.
    Mr. Marchant. Mr. Ruben, is Wal-Mart taking this new 
environmentally friendly policy to all of its operations, 
international as well?
    Mr. Ruben. Yes.
    Mr. Marchant. And what kind of success are you having 
outside of the United States?
    Mr. Ruben. Well, the key to even the progress so far is 
that it lives inside the business. So what I mean by that is 
this is not a select group of people who sit on the side of the 
business talking about what we can do for the environment; it 
is about the way decisionmakers operate in the business, to 
have a broader view of unintended consequences and what takes 
place. So in every market--let me speak first from a market 
perspective and then from a centralized company perspective.
    In every market people are identifying new opportunities to 
save energy, to save resources, to supply better products. On a 
centralized perspective, some of our learnings are coming in a 
global way. For example, solar technology, we are learning 
quite a bit from Central America, given the number of days of 
sunlight and the cost of energy. So both from a market 
perspective as well as a company perspective we are seeing 
opportunities being a global company.
    Mr. Marchant. Thank you.
    Chairman Tom Davis [presiding]. Mr. Roosevelt, I apologize 
for not being here, but you mentioned the difficulties 
companies face in implementing voluntary environmentally 
friendly policies, while at the same time running the risk of 
falling behind in their industry. Given this conundrum, do you 
see any opportunities for the Federal Government to further 
spur voluntary action in the corporate world?
    Mr. Roosevelt. I think voluntary action has worked. We have 
seen leadership. Well-run companies are doing the right thing. 
But you need mandatory compliance; otherwise, you are going to 
have a problem with the free rider. There will be too many 
companies who will say, let's earn short-term profits and we 
will not take the long-term decisions that we need to make 
ourselves both stronger as a nation and both stronger in our 
industry.
    Perhaps the best example of that--and I don't want to pick 
on Detroit. We don't want to see an industrialized ghetto in 
Detroit, but 5 years and 10 years ago, if you were deciding you 
wanted to buy stock in an automotive company would you have 
bought Ford or General Motors or Toyota? It was pretty clear 
one company had a better idea of the changes that were 
occurring in the environment, the business environment, and 
were taking appropriate steps to become more competitive. We 
overprotected our companies.
    Chairman Tom Davis. Well, we did, in fact. I know that Mr. 
Waxman and myself and Mr. Shays, we favored higher CAFE 
standards. Had they complied with that, they would have been 
ahead of the curve.
    Mr. Roosevelt. Absolutely right.
    Chairman Tom Davis. And they resisted it, they didn't, and 
now they are paying a price for it. That is one time where the 
Government knew better than the marketplace. One of the few 
times, but it did.
    Mr. Roosevelt. One of the rules, I think, of business--and 
in my daytime job I am an investment banker--good industries 
generally reinvent themselves at frequent intervals. Not-so-
good industries tend to think that the old way of doing it will 
survive forever. If you go back and look at the catalytic 
converter, which is a good example, Detroit resisted that. They 
said, it is going to cost us $1,000, and the only cars we will 
be able to produce in the United States will be subcompacts.
    I don't see many subcompacts out on the highways today. And 
you know what a catalytic converter costs; $100. They were off 
by a factor of 10.
    Chairman Tom Davis. Thank you.
    Mr. Waxman?
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Herskovitz, thank you for being here. You are one of my 
constituents and obviously a leading producer involved with 
films. I looked at your list of successful films for television 
and movies. You do know how to communicate, and I am pleased 
that you are going to be involved in organizing a group that 
will put pressure on the U.S. Government to show the kind of 
leadership for our country and for the world in dealing with 
this very serious, the most serious environmental problem we 
have.
    Mr. Herskovitz. Thank you.
    Mr. Waxman. I feel that a lot of our policies need to be 
communicated two different ways. You are going to communicate 
more from a grassroots activist organization to get us to try 
to lead on this issue, but then the Government has to lead, as 
well, and business has to lead, and a lot of that is going to 
involve trying to communicate to people why they should buy a 
more fuel efficient product, why they should buy a more fuel 
efficient motor vehicle, why we are all in this together to try 
to accomplish the goal of protecting ourselves and the planet 
from the dire consequences of global warming.
    Do you think that as you organize this group that you might 
be available to give some suggestions to policymakers and the 
leaders of this country on how best to communicate to people 
around the Nation that we need to do things that we can do? For 
example, I offered an amendment to the energy bill, and I said 
the bill was primarily to produce more energy, drill here, 
drill there, here is some money, billions here, billions there 
to the oil, coal, nuclear industries.
    But I suggested the President could simply call on the 
American people in a lot of ways to be more efficient in their 
use of fuel by not taking wasteful trips, to try to be mindful 
of things they could do now. I hope you will keep that in mind 
as you develop your policies to help us so we can call on you 
as established communicators to get people to understand what 
is going on.
    Mr. Herskovitz. Certainly. Always willing to help in any 
way. I think there has been a big mistake, by the way, in 
judgment. It is odd, really. Most people I talk to about this 
problem make some basic assumption that the American people are 
stupid. They always say to me, well, you are going to need 
something like Pearl Harbor. You are going to need some great 
event to show people that there is a problem.
    You know, I think we are capable in this country of 
understanding that there is a problem. The problem has been the 
communication of what this issue is. It has been completely 
muddled. It has been completely mired in controversy and people 
have not known what to think. As soon as our leaders start 
saying the same thing, I think people are perfectly capable of 
understanding that there is an emergency, even though it is 
only manifested by a glacier that is melting 2,000 miles away.
    Mr. Waxman. The President of the United States is always 
credited with having an enormous bully pulpit, but when the 
President of the United States is represented by Mr. 
Connaughton who was here earlier talking enthusiastically about 
all that they are doing, which I think is far short of what 
needs to be done, the President's quotes that Congressman Van 
Hollen held up, where there is a debate going on about the 
science, that was not a clarion call for anything or anybody to 
do anything.
    Mr. Ruben, Wal-Mart is taking a leadership role in all of 
this. Do you think that what you are doing voluntarily ought to 
be mandated on people, either through a market system that 
would be brought into being by caps on emissions or some kind 
of fuel efficiency standards that would be mandated for new 
products?
    Mr. Ruben. There are some things that we see that we think 
policy action does make sense, and there are a vast number that 
we think the competitive forces actually accelerate to go 
beyond there. As an example of that, the compact fluorescent 
light bulb that I talked about, and I mentioned it was less 
than 10 percent of the sockets that could be using this bulb, 
and you had mentioned sacrifice. It is not a sacrifice to get 
someone to buy a bulb that saves them every month. As a company 
that sells items to people, it is not a sacrifice for us to 
sell these bulbs that allow people more spending money in the 
economy.
    There are a host of things that can be done right now to 
increase that number of 10 percent. At a certain point that 
bulb right now costs about $2 compared to $0.20 for the 
incandescent bulb. There is a certain percentage of the 
population that will be able to make that choice. It is a very 
good return on your money. Within 2 months you will get that 
money back.
    Mr. Waxman. That is very well put and I thank you very 
much, but I see the yellow light is on. I will ask Mr. 
Roosevelt a question.
    I assume from your testimony you think mandatory controls 
with a cap in trade would give the market incentives so that 
you wouldn't find a business out there realizing their 
competitors may not be doing what they need to do, and 
therefore they don't want to spend the money to reduce 
emissions, either. Is that a fair statement?
    Mr. Roosevelt. Yes. You have captured very succinctly what 
I believe. The beauty about cap in trade is it gives businesses 
the alternative of when they want to make a capital 
expenditure. Let's say for whatever reasons the business says, 
I want to make this capital expenditure, but I want to do it 5 
years from now. They have the opportunity to go off and buy and 
meet their emissions requirements, but then 5 years from now 
they can make the capital expenditure, and maybe they will do 
so well that they will become a net seller of carbon credits. 
So cap in trade is a very flexible way of working.
    It is a little ironic that this is an idea that was 
invented by the United States. The Europeans didn't like it. 
Somehow they thought this was a trojan horse that wasn't going 
to work. Guess who is now leading in cap and trade. It is the 
Europeans.
    You did mention, if I can just take another second--and I 
see the red light is on--you mentioned the bully pulpit, and 
that sort of runs in the family maybe a little bit. One of the 
things that I think----
    Mr. Waxman. The bully or the pulpit?
    Mr. Roosevelt. Perhaps both. One of the things that I think 
will accrue to the United States if we take a constructive role 
in global leadership on climate change is that we will start to 
regain some of the moral ground that we have lost. If nations 
around the world see that we are doing the right thing in 
global climate change, whether it be a Bangladesh, whether it 
be some of the Pacific isles, whether it be some of the poor 
countries that are being affected adversely and will be 
affected sooner by global climate change, we will regain moral 
ground and we need that to carry out other political 
initiatives.
    Mr. Waxman. Thank you. I want to thank all three of our 
panelists. I think you have been superb.
    Chairman Tom Davis. Thank you very much.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. I know time is running 
out, but I am happy to take a chance on missing votes so I will 
be happy to chair it if you need to leave.
    Chairman Tom Davis. After about 2 minutes I am going to 
turn the gavel over to you.
    Mr. Shays. Thank you.
    Chairman Tom Davis. You can finish up.
    Mr. Shays. Just very quickly I want to say to you, Mr. 
Ruben, your company is controversial at times because it is so 
large. I wish it had better relations with some of the lowest 
of your paid employees, and I want to say that, but I also 
think you enable Americans throughout the world, throughout 
this United States, to buy things at a lower price, and it is 
in some ways a transfer of resources to those who don't have 
resources.
    But I want to say thank you for doing what you are doing. 
Let me ask you, given you are so big, are you letting others 
know how you are doing this or are you trying to beat your 
competitors by letting them continue to do what they are doing? 
Are you sharing this information with others and trying to help 
others?
    Mr. Ruben. We are absolutely sharing. In fact, one of two 
experimental stores that we have open on the ground is in 
McKinney, TX. I was there this past week. The store manager 
there has become a part time tour guide. He has had just about 
every retail competitor that we have through that store. Every 
time a competitor comes through that store and sees something 
they might be able to adopt in their own practices, allows more 
people to participate in the technology, allows the scale of 
that technology to go up, the price of that technology to come 
down, creates jobs through innovation, and is simply a good 
thing.
    Mr. Shays [presiding]. I am going to ask the other two 
witnesses to just describe this. What do they think is going to 
happen in the next 3 to 4 years in public policy. I mean, I am 
starting to feel that Americans are getting it, that whether it 
is hurricanes or whatever, you know, they have finally bought 
in and are not influenced by politicians who said global 
warming is not real. I am sure that some people who said global 
warming is not real will deny they ever said it.
    But what do you think is going to happen in the next 2 or 3 
years? Do you think the public is going to have significant 
perception? And do you think people like Al Gore, who said this 
in the late 1980's, are going to gain ascendancy as someone to 
listen to again on this issue?
    Mr. Herskovitz. I think there is going to be increasing and 
frightening evidence that will convince more and more people 
that we have to act very quickly. I think the trajectory of 
urgency is going to go up very soon, and so I think public 
policy is going to have to keep trying to catch up with what 
will really be public opinion that this is a truly urgent 
problem.
    Mr. Shays. And I just want to say I have always believed, 
and you said it, you reached me in this comment. I think you 
tell the American people the truth and they will have you do 
the right thing. But when you have debates about whether 
someone earned three Purple Hearts or whether someone fulfilled 
their national service, and that was the major debate in the 
Presidential race, you don't educate people very much.
    What do you think is going to happen, Mr. Roosevelt?
    Mr. Roosevelt. I believe firmly that the American people 
are now understanding it. They are looking for leadership. They 
want to see well-thought-out leadership.
    If I may go back to Mr. Herskovitz' analogy around World 
War II, arguably the greatest mistake we made in World War II 
was not recognizing what was looming on the horizon and didn't 
get ourselves prepared for it. We see this now on the horizon 
and we see some very bright people, whether it be in the 
scientific community--I clearly salute Al Gore for an 
incredible movie. If anybody in this room hasn't seen it, 
please go see it.
    But we all need to take personal responsibility for this 
and try to change our personal carbon footprint. The American 
people, the theme that has run through all three of us this 
morning is we believe that this country is ready. People will 
make the kind of sacrifices that are necessary. Just help us 
unleash the creativity that exists in this country.
    Mr. Shays. Well, I think we will end with that note. I had 
thought it would happen 5 or 6 years sooner, but I believe it 
is going to happen and I think you all have contributed to that 
and I thank you very much.
    I don't have a gavel to hit. Would you just hit the gavel?
    A. Brooke Bennett. We are adjourned. Thank you.
    [Whereupon, at 2:30 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Elijah E. Cummings and 
Hon. Dennis J. Kucinich and additional information submitted 
for the hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T9932.175

[GRAPHIC] [TIFF OMITTED] T9932.176

[GRAPHIC] [TIFF OMITTED] T9932.164

[GRAPHIC] [TIFF OMITTED] T9932.165

[GRAPHIC] [TIFF OMITTED] T9932.166

[GRAPHIC] [TIFF OMITTED] T9932.167

[GRAPHIC] [TIFF OMITTED] T9932.168

[GRAPHIC] [TIFF OMITTED] T9932.169

[GRAPHIC] [TIFF OMITTED] T9932.170

[GRAPHIC] [TIFF OMITTED] T9932.171

[GRAPHIC] [TIFF OMITTED] T9932.172

[GRAPHIC] [TIFF OMITTED] T9932.173

[GRAPHIC] [TIFF OMITTED] T9932.174

[GRAPHIC] [TIFF OMITTED] T9932.177

[GRAPHIC] [TIFF OMITTED] T9932.178

[GRAPHIC] [TIFF OMITTED] T9932.179

[GRAPHIC] [TIFF OMITTED] T9932.180

[GRAPHIC] [TIFF OMITTED] T9932.181

[GRAPHIC] [TIFF OMITTED] T9932.182

[GRAPHIC] [TIFF OMITTED] T9932.183

[GRAPHIC] [TIFF OMITTED] T9932.184

[GRAPHIC] [TIFF OMITTED] T9932.185

[GRAPHIC] [TIFF OMITTED] T9932.186

[GRAPHIC] [TIFF OMITTED] T9932.187

[GRAPHIC] [TIFF OMITTED] T9932.188

[GRAPHIC] [TIFF OMITTED] T9932.189

[GRAPHIC] [TIFF OMITTED] T9932.190

[GRAPHIC] [TIFF OMITTED] T9932.191

[GRAPHIC] [TIFF OMITTED] T9932.192

[GRAPHIC] [TIFF OMITTED] T9932.193

                                 <all>

</pre></body></html>
